                                        AUDIT




 MANAGEMENT OF THE COASTAL
 IMPACT ASSISTANCE PROGRAM IN THE
 STATE OF LOUISIANA




Report No.: ER-IN-FWS-0010-2013   September 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                  SEP 3 0 2014
Memorandum

To:            Daniel M. Ashe
               Director, U.S. Fish and Wildlife Service

From:          Mary L.  Kendall;;~/..#
               Deputy Inspector General

Subject:       Final Audit Report - Management of the Coastal Impact Assistance Program in
               the State of Louisiana
               Report No. ER-IN-FWS-0010-2013

        This memorandum transmits the results of our audit of the Coastal Impact Assistance
Program (ClAP) grants awarded to the State of Louisiana. We audited this program to determine
if ClAP grant recipients in Louisiana have complied with the ClAP authorizing language and
grant regulations, in addition to U.S . Department of the Interior policies; if costs charged to the
grants are allowable, allocable, and reasonable; and ifFWS effectively administers ClAP by
evaluating its overall strategy to award and monitor grants.

        Our audit found significant deficiencies in FWS' and the State's management ofCIAP
grants, such as-

        •   ineffective grant monitoring by FWS;
        •   insufficient State procurement laws;
        •   unallowable costs and mishandled accounting and financial issues;
        •   improper acquisitions of real property;
        •   ineligible drawdowns; and
        •   inappropriate changes in grant scope.

       As a result, we questioned $9,878,964 in ClAP funds, representing ineligible grant
charges, unreasonable costs, and expenses not supported by proper documentation. In addition,
we identified $4,343,765 in ClAP funds that could be put to better use.

        Our 30 recommendations target deficiencies that have continued under FWS '
management of ClAP. These deficiencies include ineffective monitoring of grantees as well as
many ineligible or unallowable uses of funds by grant recipients. In its response to our draft
report, FWS concurred or partially concurred with 23 of our recommendations and stated that it
is working to implement or close these recommendations (see Appendix 6). Based on FWS '
response, we modified our final report as appropriate. We consider 4 recommendations
unresolved, 14 resolved but not implemented, and 12 closed (see Appendix 7).




                                Office of Inspector Gener al   I Washington, DC
      We will send the 18 recommendations that are unresolved or resolved but not
implemented to the Office of Policy, Management and Budget to track their resolution and
implementation.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

       If you have any questions regarding this report, please call me at 202-208-5745.




                                                2
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
Findings................................................................................................................... 4
   Ineffective Monitoring by FWS .......................................................................... 4
      Concerns With FWS State Liaisons ................................................................ 5
      Missing and Inaccurate Data ........................................................................... 5
   Insufficient Procurement Laws ........................................................................... 7
      Parish Concerns ............................................................................................... 9
   Unallowable Costs and Mishandled Accounting and Financial Issues ............... 9
      Unauthorized Preaward Costs ....................................................................... 10
      Unsupported Payroll Expenses ...................................................................... 11
      Unsupported Other Direct Charges ............................................................... 12
      Unsupported Indirect Costs ........................................................................... 12
   Improper Acquisitions of Real Property ........................................................... 13
      Use of a Noncompliant Appraisal and Unreasonable Price per Acre............ 13
      Unallowable Highest-and-Best-Use Determinations..................................... 15
      Unreasonable Acquisition Costs .................................................................... 15
      Insufficient Monitoring of Land Acquisitions, Leases, Easements, and
      Program Income ............................................................................................ 16
   Ineligible Drawdowns ....................................................................................... 18
      St. Bernard Parish .......................................................................................... 18
      Calcasieu Parish ............................................................................................. 19
      Orleans Parish ................................................................................................ 20
      St. John the Baptist Parish ............................................................................. 20
   Inappropriate Changes in Grant Scope.............................................................. 21
      St. John the Baptist Parish ............................................................................. 21
      St. Martin Parish ............................................................................................ 21
Conclusion and Recommendations ....................................................................... 23
   Conclusion......................................................................................................... 23
   Recommendations Summary............................................................................. 23
Appendix 1: Prior Audit Coverage ....................................................................... 34
Appendix 2: Scope and Methodology................................................................... 35
   Scope ................................................................................................................. 35
   Methodology ..................................................................................................... 35
Appendix 3: Grants Reviewed .............................................................................. 37
Appendix 4: Summary of Questioned Costs ......................................................... 40
Appendix 5: Undercharged Indirect Costs by the Coastal Protection and
Restoration Authority............................................................................................ 41
Appendix 6: U.S. Fish and Wildlife Service Response to Draft Report ............... 43
Appendix 7: Status of Recommendations ............................................................. 59
Results in Brief
We reviewed Coastal Impact Assistance Program (CIAP) grants awarded to the
State of Louisiana to determine if its use of grant funds complied with Federal
regulations. We identified several areas of concern for the U.S. Fish and Wildlife
Service (FWS) to address to safeguard Federal funds awarded under CIAP,
including ineffective grant monitoring by FWS, insufficient State procurement
laws, unallowable costs and mishandled accounting and financial issues, improper
acquisitions of real property, ineligible drawdowns, and inappropriate changes in
grant scope.

We questioned $9,878,964 in CIAP costs, representing ineligible grant charges,
unreasonable costs, and expenses not supported by proper documentation. In
addition, we identified $4,343,765 in CIAP funds that could be put to better use.
These questioned costs include—

   •   unused preaward costs;
   •   improper contracts;
   •   unauthorized preaward costs;
   •   unsupported payroll charges;
   •   mischarges to a grant;
   •   overallocated indirect charges;
   •   inadequate land appraisals;
   •   unreasonable interest costs; and
   •   failure to report program income despite raising revenue from grant
       activities.

We believe that the Bureau of Ocean Energy Management, Regulation and
Enforcement, which managed the program until September 30, 2011, and FWS
officials could have detected and prevented most, if not all, of these problems if
they had properly monitored the grant awards and proactively conducted site
visits.

We offer 30 recommendations focused on improving FWS’ management and
oversight of CIAP grants awarded to the State of Louisiana. We believe that, if
implemented, these recommendations will help prevent fraud, waste, and
mismanagement of Federal funds awarded under CIAP.




                                                                                     1
Introduction
Objective
We conducted this audit to determine if—

   1. the Coastal Impact Assistance Program (CIAP) grant recipients in
      Louisiana have complied with the CIAP authorizing language and grant
      regulations, in addition to U.S. Department of the Interior (DOI), Bureau
      of Ocean Energy Management, Regulation and Enforcement (BOEMRE),
      and U.S. Fish and Wildlife Service (FWS) policies;
   2. costs charged to the grants are allowable, allocable, and reasonable; and
   3. FWS effectively administers CIAP by evaluating its overall strategy to
      award and monitor grants.

We performed this audit after issuing our June 2013 report, “Management of the
Coastal Impact Assistance Program, State of Mississippi” (Report No. ER-IN-
MOA-0013-2011), which uncovered widespread deficiencies in CIAP grants
management by BOEMRE, FWS, and the grant recipients (see Appendix 1).
Appendix 2 includes a full description of our scope and methodology for the audit
of grants awarded to Louisiana.

Background
The Energy Policy Act of 2005 (Act) created CIAP, codified at 43 U.S.C.
§ 1356a. CIAP provides grant funds derived from Federal offshore lease revenues
to oil-producing States for conservation, protection, or restoration of coastal areas,
wildlife, and natural resources. The Act authorized the Secretary to disburse
$250 million in each of the fiscal years (FYs) 2007, 2008, 2009, and 2010 to
eligible CIAP grant recipients in the coastal zone counties, parishes, or boroughs
of Alabama, Alaska, California, Louisiana, Mississippi, and Texas.

The Secretary delegated oversight of these funds to the Minerals Management
Service, which bore both the initial responsibility of approving State plans and the
continuing responsibility of reviewing, approving, and monitoring grants. In June
2010, the Minerals Management Service reorganized into BOEMRE. As of
October 1, 2011, responsibility for managing the ongoing grants and awarding the
balance of the funds was transferred to FWS.

The Act required grant recipients to use all funds for at least one of five
authorized uses (AUs):

   •   projects and activities for the conservation, protection, or restoration of
       coastal areas, including wetlands (AU1);
   •   mitigation of damage to fish, wildlife, or natural resources (AU2);
   •   planning assistance and the administrative costs of complying with CIAP
       requirements (AU3);


                                                                                     2
    •     implementation of a federally approved marine, coastal, or comprehensive
          conservation plan (AU4); and
    •     mitigation of the impact of Outer Continental Shelf activities through
          funding of onshore infrastructure projects and public service needs (AU5).

The Act allocated CIAP funds to each State based on the ratio of Outer
Continental Shelf revenues generated relative to all eligible States. Allocations for
FYs 2007 and 2008 were based on revenues received for FY 2006, and allocations
for FYs 2009 and 2010 were based on revenues received for FY 2008 (see
Figure 1).

 Fiscal
           Alabama         Alaska      California     Louisiana     Mississippi      Texas
 Year
 2007      $25,551,607    $2,425,000    $7,444,442   $127,547,899    $30,939,851    $48,591,202

 2008       25,551,607     2,425,000     7,444,442    127,547,899     30,939,851     48,591,202

 2009       19,728,257    37,471,876     4,923,125    120,911,589     23,819,815     35,645,337

 2010       19,524,845    37,085,568     4,872,364    119,663,561     23,574,218     35,279,444

 Total     $90,356,316   $79,407,444   $24,684,373   $495,670,948   $109,273,735   $168,107,185


Figure 1. CIAP allocations by State for FY 2007 through FY 2010.

The Act divided these amounts among the State governments and their counties,
parishes, or boroughs. Each State government was apportioned 65 percent of the
State’s overall CIAP allocation. The remaining 35 percent was divided among the
State’s eligible counties, parishes, or boroughs based on several factors, including
population, miles of coastline, and proximity to leased tracts.

To receive CIAP funds, the Governor of each eligible State had to submit for
BOEMRE’s approval a coastal impact assistance plan detailing how CIAP funds
would be spent. Each Governor was required to solicit local input and provide for
public participation in the development of the State plan. BOEMRE reviewed
each State plan for consistency with the authorized uses and required content,
including certification by the Governor that ample opportunity for public input
occurred. Upon approval, eligible recipients could apply for CIAP funding.

The State of Louisiana had 20 eligible CIAP recipients: the Coastal Protection and
Restoration Authority (CPRA), and the parishes of Assumption, Calcasieu,
Cameron, Iberia, Jefferson, Lafourche, Livingston, Orleans, Plaquemines, St.
Bernard, St. Charles, St. James, St. John the Baptist, St. Martin, St. Mary, St.
Tammany, Tangipahoa, Terrebonne, and Vermilion. The Governor designated
CPRA to manage the State government’s portion of CIAP funds, while parish
designees manage the funds allotted to each parish.




                                                                                             3
Findings
DOI awarded the State of Louisiana and its 19 eligible parishes 127 CIAP grants
totaling $494.2 million between April 2008 and March 2013. During our audit,
we reviewed 47 grants totaling $367,197,846 and found several issues with FWS’
monitoring of grants that raised concerns about the potential for misuse of funds
in Louisiana and FWS’ inability to detect it (see Appendix 3).

FWS continues to rely on grantee risk assessments conducted by BOEMRE even
though BOEMRE did not conduct a risk assessment for the largest CIAP
recipient, CPRA. Grant managers use these risk assessments to determine the
extent of monitoring needed for each grant recipient. In addition, FWS did not
comply with departmental guidance that requires bureaus to proactively monitor
financial assistance recipients through a risk-based approach. Furthermore, weak
State procurement laws increase the need for vigilant FWS oversight. This
environment, coupled with CIAP recipients in Louisiana that struggle to properly
manage their grants, led us to question more than $14 million in ineligible and
unsupported costs and funds to be put to better use (see Appendix 4).

Ineffective Monitoring by FWS
We identified grant monitoring as a major area of concern in our review of grants
awarded to Louisiana. For example, we found that BOEMRE assessed grantees’
levels of risk before awarding grants. FWS determined that reassessing the risk
with these grantees before awarding a grant was unnecessary and instead relied on
BOEMRE’s risk assessments. We noted, however, that at the time when
BOEMRE conducted its risk assessments, the single largest recipient in the entire
program—the State government of Louisiana—had delegated CIAP management
to the Louisiana Department of Natural Resources (DNR). When FWS assumed
responsibility for CIAP in October 2011, the Governor of Louisiana had
transferred management of the program to CPRA, a different agency than
BOEMRE had reviewed in its risk assessment. As a result, FWS claimed to rely
on a risk assessment that was never actually conducted for an agency charged
with disbursing more than $320 million in grant funds.

In addition, we noted that FWS did not comply with departmental guidance that
requires a risk-based approach to monitoring. Department of the Interior
Guidance Release (DIG) 2011-03 outlines a DOI-wide policy for proactively
monitoring financial assistance recipients to protect against fraud, waste, and
mismanagement. Instead of following the DIG and completing the required risk
assessments, FWS continued to rely on the outdated—or, in the case of CPRA,
nonexistent—risk assessments completed by BOEMRE.

Consequently, instead of using the required assessments to assign recipients a
risk-based level of monitoring, which ranges from annual site visits for high-risk
grantees to annual desk reviews (consisting of phone calls and emails to grant


                                                                                     4
recipients) for low-risk grantees, FWS managed all grantees at the same level of
risk. FWS required all recipients, notably even those that BOEMRE had deemed
high risk, to submit only the minimum requirement of annual financial and
performance reports, effectively ignoring the proactive approach outlined in the
DIG.

In response to recommendations we offered in a Notice of Potential Findings and
Recommendations regarding FWS’ noncompliance with the DIG, FWS has
drafted its own guidelines to satisfy the DIG’s intent. We recognize that the
Office of Acquisition and Property Management is reviewing these guidelines,
but we are still concerned by FWS’ hesitance to fully comply with departmental
policy intended to standardize how all DOI bureaus monitor financial assistance.

Concerns With FWS State Liaisons
As part of its monitoring plan, FWS appointed a State liaison in each CIAP-
eligible State. The liaison’s role was to provide technical assistance to grantees
and to monitor grants awarded. Despite this appointment, we are still concerned
that FWS does not take a more proactive approach to monitoring. When we
interviewed FWS’ headquarters staff we learned that headquarters staff monitor
milestones and financial reporting and review and approve grants and
amendments, but that the State liaison performs most of the day-to-day
monitoring and communication with grantees.

We found, however, that while the Louisiana liaison monitored and
communicated with CPRA, many of the parishes we visited claimed to have little
to no interaction with the liaison. We also found that the liaison had only
conducted a handful of site visits and typically only visited a parish if requested
by the grantee. In addition, the liaison could not provide us with any type of
monitoring plan, despite the fact that 99.7 percent of the CIAP funds awarded to
Louisiana have been obligated, which means that the liaison’s main responsibility
should have shifted from technical assistance to monitoring.

We are also concerned that the FWS Louisiana liaison works in the same office
space as CPRA staff. While we recognize both the cost-saving benefits of sharing
space and the ease of assisting a grantee in person, we question the liaison’s
ability to perform independent oversight. The liaison currently works from an
open cubicle among CPRA employees, and because of this arrangement, often
takes work calls in her car rather than in the workspace.

Missing and Inaccurate Data
When we started this audit, we noted discrepancies between data provided by
grantees and data provided by FWS. When we informed FWS staff of these
discrepancies, they said they would verify their spreadsheets to ensure accuracy,
something they had not done since the program was moved to FWS. During their
review, FWS staff found additional discrepancies, including a grant that
BOEMRE had awarded that did not show up in FWS’ data.



                                                                                     5
Incorrect data, along with the other monitoring failures noted above, raise
concerns of FWS’ ability to track the progress and status of CIAP grants. Closely
monitoring expenditures on grants and comparing them to budgets and milestones
identified in grant documents can be a useful tool for monitoring progress in the
absence of site visits. More specifically, these data could identify a grantee that
used its budget too quickly and is at risk of cost overruns, or a grantee that spent
too little of its budget into its period of performance and is at risk of running out
of time to complete its project by FWS’ December 31, 2016 deadline for
submitting grant amendments.

For example, we noticed that the grant budget for CIAP administration in
Louisiana included a request for $4 million for preaward costs—costs already
incurred before the date of award—in August 2011. We reviewed the drawdown
data in March 2013, expecting to see more than $4 million drawn down, but we
noticed that drawdowns for both pre- and postaward costs totaled less than
$1 million. We found this discrepancy alarming and asked CPRA why it
requested such a large amount of preaward funding but did not draw down the
funds in a reasonable amount of time.

CPRA directed us to DNR, which does the accounting for CPRA, to determine
the reason for such a large discrepancy between the preaward amount requested
and the amount actually drawn down. We discovered a non-CIAP account that
showed nearly $3.2 million in payments to the contractor who administers CIAP
that had not been drawn down. We also found that several payments to the
contractor had been transferred out of this this account into a CIAP account
associated with the administration grant (F12AF00170), but only one charge of
$65,079 was for preaward costs. Since this account contains no other charges for
preaward costs, we question the remaining $3,934,921 (the original $4 million
requested for preaward costs minus $65,079) as funds to be put to better use (see
Figure 2).

                                            Authorized Actual   Funds to
     Grant
                        Grant Title          Preaward Preaward Be Put to
    Number
                                               Costs    Costs  Better Use
                    State of Louisiana-
 F12AF00170         Administration of         $4,000,000        $65,079        $3,934,921
                    CIAP project

Figure 2. Funds to be put to better use resulting from the unused balance of preaward costs
on grant F12AF00170.

When we asked DNR staff if the $3.2 million in expenditures shown in the non-
CIAP account could be CIAP charges that DNR never transferred, they stated that
they did not know the nature of those charges because they do not transfer funds
unless instructed by CPRA. According to DNR staff, DNR receives invoices from
CPRA stamped with a certain code; records the charges as coded; and, if the code



                                                                                          6
is for a CIAP expense, draws down the requested funds from FWS. We are
concerned that such poor communication and absence of continual oversight
between CPRA and DNR allowed a problem like this to arise, indicating the need
for further oversight by all parties to ensure that accounting data used to prompt
drawdowns is accurate and complete.

 Recommendations

 We recommend that FWS:

    1. Establish a protocol to conduct and review risk assessments for all CIAP
        recipients in accordance with DIG 2011-03;

    2. Develop and implement a monitoring plan that will effectively and
        efficiently utilize the existing CIAP State liaisons;

    3. Provide State liaisons with the workspace necessary to promote
       independent oversight;

    4. Develop and implement a schedule for reviewing grant records for
       accuracy;

    5. Develop and implement a plan to compare projected spending levels to
       actual drawdowns to ensure that budgets reasonably match actual
       expenditures;

    6. Monitor projects at risk of not completing work by the December 31,
       2016 deadline and develop a plan to address incomplete projects; and

    7. Resolve the $3,934,921 in unused preaward costs that we consider
       funds to be put to better use.


Insufficient Procurement Laws
During our review, we also found that Louisiana procurement law increases the
need for proactive monitoring by FWS. The Code of Federal Regulations
(43 C.F.R. § 12.76) allows State governments that receive grants to follow their
State’s procurement regulations, but we believe that Louisiana’s procurement
regulations potentially increase the risk of fraud, waste, or mismanagement of
Federal funds. Louisiana law states that “contracts for professional services [such
as architecture or engineering] may be awarded without the necessity of bidding
or competitive negotiation,” regardless of dollar amount. If the State, however,
was instead treated like the Federal Government or local governments, such as the
parish governments, professional services would be subject to the same rule as all
other contracts: “All procurement transactions will be conducted in a manner
providing full and open competition.” Without the requirement of full and open


                                                                                 7
competition, State agencies could theoretically steer multimillion-dollar
engineering contracts to any firm, regardless of qualifications or conflicts of
interest. While this does not guarantee that grant funds would be used improperly,
it does present a risk that warrants increased scrutiny of milestones and spending
to ensure that any firm selected for a project can perform the work in accordance
with grant timelines and objectives.

In practice, we found that CPRA took further steps to ensure competition than the
law required, with a few notable exceptions. CPRA issued requests for proposals
and requests for statements of interest and qualifications for its professional
services contracts. CPRA used a committee to rank and select contractors in
response to these requests, but we found instances in which the highest-ranked
contractor was not selected. We also learned that the CPRA executive director has
the authority to make the final decision on which firm is chosen regardless of the
ranking committee’s recommendations, leaving the power to award major
contracts to one Governor-appointed position.

In addition to the lax requirements for competition of professional services
contracts, we found that the State agencies are not required to document the
selection process. While CPRA does produce ranking scores, it does not maintain
notes detailing its meetings, which, we found, occasionally resulted in the
committee recommending a contractor that did not submit the highest-ranked
proposal. In one case, we found that the committee recommended a contractor
who had ranked fourth on the technical score sheets with no justification why it
passed on the three contractors with higher scores. If this procurement process
had been subject to the rules for non-State recipients prescribed by 43 C.F.R.
§ 12.76(b)(9), the committee would have had to follow more stringent
requirements for documentation, which state that “grantees . . . will maintain
records sufficient to detail the significant history of a procurement. These records
will include, but are not necessarily limited to . . . rationale for the method of
procurement, selection of contract type, contractor selection or rejection, and the
basis for the contract price.”

Another competition-limiting effect of Louisiana procurement law is an agency’s
ability to increase professional services contracts by arbitrary amounts. For
example, we identified two engineering contracts that CPRA first awarded for
$350,000 and $300,000 and then increased the awards to $1,775,000 and
$3,300,000, respectively. While Louisiana law permits such increases, they would
have been subject to FWS review under the stricter non-State procurement
regulations, which allow increases of only up to $100,000.

While CPRA advertised a solicitation for each of these contracts, we believe that
the type of firm that would apply for a $300,000 contract compared to a
$3 million contract could have a dramatically different capacity to perform the
work. In addition, these types of changes increase the risk that a project will not




                                                                                      8
meet milestones or projected costs, which may warrant additional monitoring
from FWS to ensure that the contractor meets grant objectives.

Parish Concerns
In addition to State procurement law concerns, we also identified problematic
procurement actions in two parishes. First, in the City of Mandeville in St.
Tammany Parish, we found that the parish awarded an engineering contract to a
firm based on criteria set by the mayor. We found that the firm, which had
worked with the city in the past, had paid for several hunting and fishing trips for
the mayor. The mayor wrote the procurement criteria to include whether the
bidder had performed previous work for the city. Doing so gave the firm a higher
score than the other bidders, thus steering the contract to that firm. As a result, we
question $262,406 on the Mandeville Aquatic Ecosystem Restoration grant
(F12AF70087).

Second, in St. Bernard Parish, we found that one contractor, whose offer was
ranked third, was invited to participate in oral presentations while the two higher-
ranked firms were not. We could not find any written documentation explaining
why the parish selected this contractor and not the other two, which violates the
40 C.F.R. § 12.60(2) requirement that grantees maintain records pertaining to
grant or subgrant awards and authorizations.

 Recommendations

 We recommend that FWS:

     8. Increase oversight of State procurements to ensure maximum
        transparency, encourage full and open competition, and detect and
        deter potential fraudulent activities;

     9. Discuss and document estimated contract values with recipients to
        ensure accuracy and prevent substantial increases; and

     10. Resolve the $262,406 in questioned costs associated with grant
         F12AF70087.


Unallowable Costs and Mishandled Accounting and
Financial Issues
Federal grant regulations require specific and accurate accounting of all grant
transactions to ensure that funds are being fairly spent and accurately recorded.
To receive Federal reimbursement, such expenses must be allowable, allocable
(within the scope of the grant), reasonable, and adequately supported by price
quotations, invoices, receipts, and similar documentation. We found, however,
that CPRA and several parishes (1) drew down $337,521 in ineligible preaward
costs, (2) charged $64,982 in unsupported payroll expenses, (3) incorrectly


                                                                                     9
charged $18,554 in contractor costs not associated with a CIAP project, and
(4) improperly charged $3,641 in indirect costs.

Unauthorized Preaward Costs
Federal regulations allow grant recipients to seek reimbursement for preaward
costs incurred prior to the effective date of the award. These costs are allowable
only if they would also be allowable after the date of the award and only with
written approval from FWS. We identified $337,521 in ineligible preaward costs
on three CPRA grants (see Figure 3).

                                            Authorized Actual                  Ineligible
     Grant
                        Grant Title          Preaward Preaward                 Preaward
    Number
                                               Costs    Costs                    Costs
                    Blind River
 F12AF00217         Freshwater                $5,035,953      $5,041,887           $5,934
                    Diversion
                    Mississippi Long
 F12AF00228         Distance Sediment         1,928,453       2,259,663           331,210
                    Pipeline
                    Living Shoreline
                    Protection
 F12AF00830                                        0              377                 377
                    Demonstration
                    Project
 Total                                                                          $337,521

Figure 3. Unauthorized and ineligible preaward costs charged to CIAP grants.

On the first grant, CPRA incurred costs supporting the Blind River Freshwater
Diversion beginning in May 2008. The grant, which was awarded on January 10,
2012, authorized preaward costs totaling $5,035,953—$4,353,477 to be incurred
by CRPA and $682,476 to be incurred and reimbursed by St. James Parish.
CPRA, however, incurred $5,041,887 of preaward costs and included this amount
in the first drawdown on April 16, 2012. We therefore question the ineligible
preaward expenditures of $5,934 that exceed the authorized amount of
$5,035,953.

On the second grant, CPRA incurred costs supporting the Mississippi Long
Distance Sediment Pipeline beginning in July 2007. The grant, which was
awarded on July 14, 2011, authorized preaward costs of $1,928,453. CPRA,
however, incurred preaward costs totaling $2,259,663 and included this amount in
its first drawdown on June 22, 2012. We therefore question the ineligible
preaward expenditures of $331,210 that exceed the authorized amount.

On the third grant, CPRA incurred costs supporting the Living Shoreline
Protection Demonstration Project beginning in January 2012. No preaward costs
were authorized for this grant, but CPRA incurred $377 in contractor charges


                                                                                       10
before receiving the award on May 1, 2012. CPRA included these expenses in its
first drawdown on August 3, 2012. We therefore question $377 in unauthorized
preaward costs.

Unsupported Payroll Expenses
Federal regulations outline specific requirements for charging salaries and wages
to Federal grants. According to 2 C.F.R. § 225, Appendix B 8(h)(4) and (5), direct
labor costs must be supported by personnel activity reports that reflect an after-
the-fact distribution of actual activity for each employee, and each report must
account for the employee’s total compensated activities.

Three parishes—Tangipahoa, St. James, and Plaquemines—could not support
$64,982 in payroll expenses charged to CIAP grants (see Figure 4). Specifically,
these parishes tracked payroll with personnel activity reports that did not meet
Federal requirements and used budgeted hours instead of actual hours, as
required, to charge payroll to CIAP projects.

                                                                   Unsupported
     Grant            Abbreviated Grant
                                                     Grantee         Payroll
    Number                  Title
                                                                    Expenses
                       Lake Pontchartrain      Tangipahoa
 F12AF70030                                                                 $51,041
                      Shoreline Protection         Parish
                      Wetland Wastewater
 M07AF12798                                  St. James Parish                 9,651
                      Assimilation Process
                     Tidewater Road Flood
                                               Plaquemines
 M10AF20124          Protection Planning and                                  4,290
                                                   Parish
                          Construction
 Total                                                                     $64,982

Figure 4. Unsupported payroll expenses charged to CIAP grants.

Tangipahoa Parish
Tangipahoa Parish employees who charged time to the Lake Pontchartrain
Shoreline Protection grant did not identify actual hours worked on the grant on
their timesheets. Instead, parish employees charged payroll expenses based on a
percentage of work completed by its contractors. Federal regulations, however,
require a full account of actual activities completed rather than budget estimates
or distribution percentages. As a result, we could not determine the number of
hours that parish personnel worked in support of the CIAP grant. We therefore
question $51,041 in administrative expenses charged to this grant.

St. James Parish
St. James Parish employees who charged time to the Wetland Wastewater
Assimilation Process grant did not provide sufficient documentation of work
activities. According to parish personnel, parish employees filled out timesheets
with the total hours worked each day and then wrote a number below their total


                                                                                 11
hours that represented the number of hours worked on CIAP. Because the
timesheets did not indicate which line represented which activity and no grant
numbers or other indicators specifically identified CIAP hours, we could not
effectively determine the number of hours parish employees worked in support of
the CIAP grant. We therefore question $9,651 in payroll expenses charged to this
grant.

Plaquemines Parish
A Plaquemines Parish employee who charged time to the Tidewater Road Flood
Protection Planning and Construction grant did not identify the actual hours
worked in support of the grant on his timesheet. As a result, the parish charged the
employee’s time based on budgeted hours, not actual hours. We therefore
question $4,290 in payroll expenses charged to this grant.

Unsupported Other Direct Charges
We found that CPRA incorrectly included $18,554 in contractor costs from a
company that, according to the CIAP coordinator, was not a contractor for the
Orleans Land Bridge grant (F12AF70070). Upon further review, the CIAP
coordinator stated that the invoice should have been charged to a non-CIAP
assignment. Therefore, we question $18,554 as an unsupported cost.

Unsupported Indirect Costs
We found that CPRA charged indirect costs to 28 CIAP grants to pay for central
services, such as human resources, accounting, and procurement services, that
benefit those grant programs. We reviewed indirect costs charged to all 28 and
found that CPRA overallocated $3,641 in indirect charges on 3 of the grants (see
Figure 5). These overages occurred because CPRA based the calculation on the
approved negotiated rate at the time of the grant application but did not adjust the
calculation when the approved rate changed.

     Grant                                                          Unsupported
                                      Grant Title
    Number                                                         Indirect Costs
                         Mississippi River Delta Management
 F12AF00597                                                                  $1,630
                                  Strategic Planning
 F12AF70170           State of Louisiana-Administration of CIAP              $1,246
 F12AF70083               Grand Lake Shoreline Protection                      $765
 Total                                                                       $3,641

Figure 5. Unsupported indirect costs charged to CIAP grants.

Furthermore, we identified 17 additional grants with incorrect indirect charges
(see Appendix 5). These charges did not exceed the maximum allowable amount,
but we are concerned about CPRA’s inability to accurately account for indirect
costs.




                                                                                  12
 Recommendations

 We recommend that FWS:

       11. Resolve the unallowable preaward costs of $5,934 charged to grant
           F12AF00217; $331,210 charged to F12AF00228; and $377 charged to
           F12AF00830;

       12. Recover the $51,041 in unsupported administrative expenses charged
           to grant F12AF70030; the $9,651 in unsupported payroll expenses
           charged to M07AF12798; and the $4,290 unsupported payroll expenses
           charged to M10AF20124;

       13. Ensure that grant recipients follow Federal regulations requiring
           employees to adequately document after-the-fact hours and include
           descriptions on their timesheets for all CIAP-related activities;

       14. Recover the $18,554 in unsupported other direct charges to grant
           F12AF70070; and

       15. Recover the $3,641 in unsupported indirect costs for grants
           F12AF00597, F12AF70083, and F12AF70170.


Improper Acquisitions of Real Property
CPRA and Livingston Parish received CIAP grants to acquire and conserve real
property, but appraisals of real property must meet the Uniform Appraisal
Standards for Federal Land Acquisitions (UASFLA). As of March 2013, these
recipients had acquired three parcels of land under grants provided by BOEMRE
or FWS. We found that grant recipients—

   •    used a noncompliant appraisal with an unreasonable price per acre;
   •    accepted appraisals with unallowable highest-and-best-use determinations;
   •    used grant funds to pay for unreasonable acquisition costs; and
   •    insufficiently monitored land acquisitions, leases, easements, and program
        income.

Use of a Noncompliant Appraisal and Unreasonable Price per Acre
We found that Livingston Parish used a $3,034,732 CIAP grant to purchase a
2,368-acre tract of land in May 2011 at $1,000 per acre. Prior to purchasing the
land, the parish had an appraisal conducted in December 2010 that did not comply
with UASFLA standards, misled parish and Government officials, and appeared
to contain an unreasonable price per acre.




                                                                               13
The reviewer initiated a review appraisal in January 2011. During the review, the
review appraiser met with the original appraisers to discuss “the issues and agreed
upon a course of action that would bring the appraisal reports into full compliance
with the regulations.” During these discussions, the original appraisers informed
the review appraiser that the December 2010 appraisal report was not the final
version and it was “more of a draft that had been furnished to Livingston Parish
for comment.” The original appraisers made changes to the December 2010
appraisal as suggested by the review appraiser to bring the appraisal into
compliance with UASFLA standards and reissued the appraisal in February 2011.

We found, however, that the parish did not know about a final report, dated
February 14, 2011, and that the parish submitted the December 2010 appraisal,
which did not meet UASFLA standards, to BOEMRE as support for the land
value. In addition, the cover letter attached to the December 2010 appraisal sought
payment for the appraisal and stated that delivery of the appraisal report
completed the employment contract. We could not find any indication that the
original appraisers’ December 2010 appraisal was a draft report. We believe the
appraisers misled the parish and the Federal Government when it presented this
report as final.

In early February 2011, shortly after the December 2010 appraisal was completed,
the landowner sold all of his property, including the 2,368-acre tract of land that
the parish intended to purchase—a total of approximately 32,000 acres—to a real
estate investment company for approximately $200 an acre. We acknowledge that
the original appraiser would not have included this sale in his appraisal since he
valued the land prior to this sale. The review appraiser, however, did include this
sale in his report, informing the parish of the most recent sale.

UASFLA considers “[p]rior sales of the same property, reasonably recent and not
forced . . . extremely probative evidence of market value.” We believe that the
parish should have questioned the value in the December 2010 appraisal for the
2,368-acre tract after obtaining the new information from the review appraiser,
considering that UASFLA standards stress the importance of a prior sale in
determining market value and that the parish paid $1,000 per acre when it
purchased the land in May 2011—an $800-per-acre increase from the previous
sale in February 2011.

We therefore question $2,625,888—the total amount used to purchase the land—
as ineligible costs because the parish used a noncompliant appraisal and did not
comply with the grant terms. We identified $408, 844 as funds to be put to better
use, which is the remaining balance of the total grant amount of $3,034,732. We
also question $1,893,600 as unreasonable costs because of the $800-per-acre
increase from the previous sale less than 4 months prior (see Figure 6 on p. 15).




                                                                                14
                                                                   Unreason-         Funds to
                                                        Ineligible
   Grant                      Land         Grant                      able           Be Put to
               Grantee                                 Questioned
  Number                      Tract       Amount                   Questioned         Better
                                                          Costs
                                                                     Costs             Use
                            Blind River
 F12AF         Livingston
                            Properties,   $3,034,732     $2,625,888     $1,893,600    $408,844
 70047           Parish
                                Inc.

Figure 6. Ineligible and questioned costs associated with Livingston Parish’s purchase of real
property.

Unallowable Highest-and-Best-Use Determinations
CPRA received a $20,166,136 grant, the Coastal Forest Conservation Initiative
(CFCI), to acquire and conserve critical land. Although UASFLA considers the
highest-and-best-use (HBU) determination one of the most important elements of
the entire appraisal process, the two appraisals obtained for CFCI, known as the
Blind River and Bayou Sale tracts, contained questionable HBU analysis and
application.

UASFLA states that “each potential use must be analyzed in terms of its physical
possibility, legal permissibility, financial feasibility, and its degree of
profitability,” and that the use of land that results in the highest profitability is the
property’s highest and best use. Two appraisals, performed by the same appraiser,
for the Blind River and Bayou Sale tracts considered multiple HBUs for each
property: conservation, recreation, and mitigation credits. The standards,
however, prohibit using a non-economic HBU, such as conservation, that
“requires the property to be withheld from economic production in perpetuity.”
UASFLA clearly states that any appraisal using conservation as an HBU “will not
be approved for Federal land acquisitions purposes.”

We found that CPRA purchased the Blind River tract for $6.5 million, using
$4.5 million in CIAP funds and $2 million in Louisiana Wildlife and Fisheries
Foundation funds. CPRA purchased the Bayou Sale tract for $2 million using
CIAP funds. Both appraisals included conservation as one of the three HBUs, so
we question $6.5 million as ineligible (see Figure 7).

                                                                                 Ineligible
   Grant
                  Grantee          Land Tract          Grant Amount             Questioned
  Number
                                                                                   Costs
 F12AF                              Blind River                                     $4,500,000
                    CPRA                                     $20,166,136
 70284                              Bayou Sale                                       2,000,000
 Total                                                                             $6,500,000

Figure 7. Ineligible questioned costs associated with the State’s CFCI grant.

Unreasonable Acquisition Costs
Our review determined that St. Tammany Parish acquired the French Property on
October 14, 2009, using $1,718,150 in CIAP funds from the Trust for Public Land


                                                                                            15
(TPL). TPL purchased the land in February 2007 and immediately entered into a
lease-purchase agreement with the parish. The agreement stipulated that the
parish pay TPL $100,000 on February 14, 2007, a base rent payment of $390,000
on September 15, 2008, and accrued interest on the unpaid balance, which was
due when the parish acquired the land from TPL. We found that the parish paid
the initial $100,000 deposit but neglected to pay the base rent. As a result of the
missed payment, the parish overpaid interest in the amount of $7,486. We
therefore question the overpayment as an unreasonable cost (see Figure 8).

                                                                         Unreasonable
     Grant                                                 Grant
                      Grantee         Land Tract                          Questioned
    Number                                                Amount
                                                                            Costs
                     St. Tammany         French
 M08AF15129                                                $1,718,150              $7,486
                         Parish         Property

Figure 8. Unreasonable costs associated with St. Tammany Parish’s acquisition of the French
Property.

Insufficient Monitoring of Land Acquisitions, Leases, Easements, and
Program Income
We found that CIAP grant recipients insufficiently monitored land acquisitions,
leases, and easements, leaving CIAP projects and the Federal Government
vulnerable to misuse, as well as unreported program income. FWS provided a
letter to all State fish and wildlife agencies in March 2007 that outlined the
minimum requirements for maintaining a complete inventory of lands or
easements acquired using FWS grant funds. This letter was not addressed to
CPRA and did not specifically mention CIAP grants, but we believe that these
requirements should also apply to all CIAP lands and easements after FWS
assumed responsibility for managing CIAP in October 2011.

CPRA provided us with a listing of land purchases and easements and rights of
way, including two CIAP purchases in November 2011 and December 2012, and
we found that the data within the listing are insufficient and do not meet the
requirements outlined in FWS’ March 2007 letter. Furthermore, FWS does not
maintain a database that lists lands acquired or easements obtained under CIAP
projects. Without effective management of these lands, FWS cannot ensure that
the advantages promised by the conservation acquisitions actually benefit the
intended user and protect the public’s investment.

Easements
We found that FWS awarded Plaquemines Parish a grant to restore approximately
300 acres of wetland area. To meet this objective, the parish planned to dredge
materials from various sites and deposit the material throughout seven project
sites to restore vital marsh. During our site visit, the program manager informed
us that private individuals own the lands where the marsh restoration is taking
place. We asked a parish representative multiple times for copies of any executed
easements and did not receive a response.


                                                                                         16
FWS stated in its response to our draft report that it does not have the legal
authority to require the parish to obtain conservation easements (see Appendix 6).
We believe, however, that FWS could encourage the parish to consider doing so
because without conservation easements to protect these projects from third-party
interference, we cannot verify that the Federal Government’s interest in this
project is adequately protected.

Program Income
We determined that CIAP grant recipients in Livingston Parish did not report at
least $650 in program income on one grant as required by Federal regulations. We
also found that CPRA has the potential to earn income. According to 43 C.F.R.
§ 12.65, program income is gross income received by a grantee and is “directly
generated by a grant supported activity, or earned only as a result of the grant
agreement during the grant period.” If a recipient earns program income, the
recipient should deduct the income from the total grant amount unless the grant
agreement specifies an alternative. Using the deduction method, more Federal
funds become available for other projects to restore, preserve, and conserve
Louisiana’s coastal environment.

In March 2010, BOEMRE awarded Livingston Parish a grant to purchase land.
The parish purchased the land in May 2011, but we found that the grant remains
open with a balance of $408,884. At the time of the sale, a private citizen and the
previous landowner created a campsite licensing agreement. Under conditions of
the agreement, the citizen pays $325 annually for this campsite.

We determined that the fee for the site is now owed to the parish, and therefore
the parish should have reported 2 years of fees, totaling $650, as program income.
Parish officials did not report revenue earned from this campsite, and the citizen
directed payments to the previous landowner. Both the previous landowner and
the parish acknowledged the oversight. The previous landowner provided back
payments to the parish, and the lessee will now direct payments to the parish. The
parish will continue to earn program income annually until the grant is closed on
December 31, 2014. We identified the $650 in rental income, in addition to future
payments that the parish will receive, as funds to be put to better use.

In addition, we found that CPRA has the potential to earn program income
through oil and gas activities on a tract of land it purchased under the State CFCI
grant. BOEMRE awarded this grant in December 2010 with the purpose of
“acquir[ing] land rights from willing landowners to address demonstrated threats
of conversion and/or opportunities for restoration, conservation, or enhanced
sustainability of coastal forest tracts.” According to the CFCI grant project
manager, the deed on the Blind River tract, purchased through the CFCI grant,
stipulates that Louisiana’s Department of Wildlife and Fisheries collects 5 percent
of all oil and gas revenues generated on the property for property maintenance. At
the time of our site visit, no income had been earned.




                                                                                 17
 Recommendations

 We recommend that FWS:

    16. Resolve the $2,625,888 in ineligible costs and the $408,844 in funds to
        be put to better use in Livingston Parish;

    17. Resolve the $1,893,600 in unreasonable costs in Livingston Parish;

    18. Submit a report to the Appraisal Institute identifying the potential ethics
        violations the appraiser committed by misrepresenting the appraisal to
        the parish and the Federal Government;

    19. Recover the $6,500,000 in ineligible costs associated with appraisals that
        did not use an allowable HBU;

    20. Recover the $7,486 in unreasonable costs from St. Tammany Parish;

    21. Maintain a record of all land and easements purchased with CIAP funds,
        as well as develop an automated easement and acquisition inspection
        process to record the easement monitoring history and document all
        monitoring activities;

    22. Review any easements in Plaquemines Parish to ensure the rights of
        usage are protected;

    23. Recover $650 in program income from leases on CIAP lands; and

    24. Require CPRA to develop a monitoring plan to ensure program income
        is captured when earned and then reported to FWS.


Ineligible Drawdowns
During our audit, we found discrepancies between drawdown records provided by
FWS and those provided by various parishes. We also found an instance in which
FWS allowed St. Bernard Parish to draw down funds well after the end of the
period of performance of the grant and another instance of Calcasieu Parish
drawing down more funds than necessary for reimbursement and earning interest
on the difference. These errors, made by both FWS and the parishes, raise
concerns over the management of Federal funds under CIAP.

St. Bernard Parish
We found that the period of performance for the Update of the St. Bernard Parish
Coastal Management Plan grant (F12AF70041) had expired in July 2011, nearly
2 years prior to our site visit in June 2013, yet BOEMRE, St. Bernard Parish, and
FWS all failed to notice the date of expiration, and grant funds remained


                                                                                  18
available. In accordance with grant terms and Federal regulations, the parish
should have liquidated unexpended grant funds no more than 90 days after the
end of the period of performance. Despite this, St. Bernard Parish drew down
nearly $50,000 of the balance of the grant 9 months after the grant should have
been terminated. FWS did not notice this improper drawdown, and the grant
remained open for another 11 months until we discovered this issue during our
audit.

In addition, when we asked if the parish or its contractor tasked with managing
CIAP filled out and submitted the required annual reports, none of the parish staff
knew what reports were required or even what a Standard Form 425, “Federal
Financial Report,” was, so parish staff stated that they believed the contractor
must be doing the reporting.

FWS’ failure to monitor this grant and the grantee’s insufficient knowledge of
grant terms raises concerns over the ability of both parties to prevent fraud, waste,
or mismanagement of Federal funds.

Calcasieu Parish
FWS provided us with records from March 2013 indicating that Calcasieu Parish
had drawn down $153,063 on the Horseshoe Lake Marsh Restoration grant. We
compared FWS’ records to those provided by parish officials and discovered that
parish records reported that the parish had drawn down $164,740—$11,677 more
than FWS’ records reported. When asked about the difference between the FWS
and parish records, parish officials reconciled the amount as $174,254,
representing an even greater discrepancy of $21,191.

While attempting to reconcile those records, we discovered that the parish also
overdrew on the Clear Marais Bank Protection grant. We found that on May 24,
2010, the parish drew down $175,000 despite only needing $153,809 to cover
invoices for the grant. The additional $21,191 remained in the parish bank
account, and the parish used those funds improperly to pay invoices associated
with the Horseshoe Lake Marsh Restoration grant, accounting for the difference
noted above (see Figure 9).

     Grant             Abbreviated Grant                                      Ineligible
                                                         Grantee
    Number                    Title                                             Costs
                        Clear Marais Bank                Calcasieu
 F12AF00426                                                                          $21,191
                           Protection                     Parish

Figure 9. Ineligible costs associated with the Clear Marais Bank Protection grant.

In addition, FWS’ records did not indicate that the parish had drawn down any
money for the Clear Marais Bank Protection grant. When we notified FWS staff
of this discrepancy, they determined that BOEMRE had not included the
transaction information for the grant in the spreadsheet it provided to FWS during



                                                                                           19
the transfer of the program. We are concerned about both the parish’s improper
use of CIAP funds and FWS’ failure to ensure the completeness of its records.

Orleans Parish
We identified yet another discrepancy in FWS records in Orleans Parish. The
parish reported $14,730,942 as the total amount of authorized Federal funds for
the Orleans Land Bridge Shoreline Protection and Marsh Creation grant. FWS’
records, however, only showed an obligated amount of $14,610,942—a difference
of $120,000. FWS corrected its records when notified of the discrepancy.

St. John the Baptist Parish
We also reviewed accounting data and invoices provided by St. John the Baptist
Parish for the West Lac Des Allemands Shoreline Protection grant and found that
the parish drew down more than was required for reimbursement. Both the FWS
and parish records indicated that the parish had drawn down $507,369 at the time
of our review, yet the parish could only produce invoices totaling $470,074—a
difference of $37,295 that we consider unsupported questioned costs (see Figure
10). The parish held this $37,295 in an interest-bearing account, which would
violate Federal regulations if the interest earned exceeded $100. Once notified of
the issue, the parish moved the excess funding from the interest-bearing account
to avoid exceeding that threshold, but we are again concerned that CIAP grantees
may not fully understand grant regulations.

     Grant           Abbreviated Grant                                Unsupported
                                                     Grantee
    Number                  Title                                        Costs
                        West Lac Des
                                                    St. John the
 F12AF70317          Allemands Shoreline                                       $37,295
                                                   Baptist Parish
                          Protection

Figure 10. Unsupported costs associated with the West Lac Des Allemands Shoreline
Protection grant.

 Recommendations

 We recommend that FWS:

     25. Develop and implement a process to review drawdown records to
         ensure their accuracy;

     26. Provide training to grantees to ensure the grantees understand Federal
         grant fund regulations;

     27. Resolve the $21,191 in ineligible costs associated with the Clear Marais
         Bank Protection grant (F12AF00426); and




                                                                                    20
 Recommendations

    28. Resolve the $37,295 in unsupported costs associated with the West Lac
        Des Allemands Shoreline Protection grant (F12AF70317).


Inappropriate Changes in Grant Scope
During our site visits, we found that projects in two different parishes—St. John
the Baptist and St. Martin—were at risk of failing to meet the objectives of two
ongoing grants. As both projects neared critical junctures in procurement and
construction, we immediately notified FWS of these issues to prevent the parishes
from expending grant funds without accomplishing the intent of the grants. While
FWS has proposed action to correct these issues, we believe that proper
monitoring may have detected them earlier.

St. John the Baptist Parish
We visited St. John the Baptist Parish to review the West Lac Des Allemands
Shoreline Protection grant (F12AF70317). FWS awarded this $3.8 million grant,
which accounts for 65 percent of the parish’s CIAP allotment, to construct 11,000
linear feet of shoreline protection from a small community on Lac Des Allemands
to a peninsula known as Pointe aux Herbes to protect a high-erosion area that the
U.S. Geological Survey determined to be eroding by nearly 3 acres per year.

We reviewed the most recent performance report, dated January 17, 2013, that the
parish submitted to FWS and found that the project engineer reported that only
7,000 linear feet were to be constructed. During our site visit, we asked the
engineer about this difference and learned that the award amount would likely
fund even fewer linear feet—around 6,000—and, therefore would only provide
protection roughly halfway to Point aux Herbes, the fastest eroding point.

We believe that such a difference in linear feet constitutes a material deviation
from grant objectives and question whether the drastically lower amount of
shoreline protection will provide sufficient erosion control to meet the grant’s
intent. We also believe that completing only 6,000 linear feet of shoreline
protection does not meet stated goals of the grant and will be detrimental to
CIAP’s effectiveness in the parish. After we alerted FWS to our concerns,
officials stated that they would amend the grant to reflect their acceptance of the
lower linear footage. In its response to our draft report, however, FWS stated that
a formal amendment was not required. The parish reflected the decrease in a
performance report in January 2014.

St. Martin Parish
We also reviewed the Bayou Amy Trail and Educational Pavilion grant
(F12AF70136). FWS awarded this grant, totaling nearly $390,000, to create a
conservation outreach and educational center in St. Martin Parish. Grant
objectives include the construction of a nature trail, a pavilion, and a restroom.


                                                                                     21
During our site visit, parish officials informed us that the project received funding
from multiple sources, including local government, State government, and CIAP
funds. The project engineer stated that the construction portion of the project
would be a single contract funded by all three sources. He believed that the CIAP
funding was allocated for a floating dock and parking area, as well as the
restroom and pavilion. The engineer informed us that the educational portion of
the pavilion would come from the Louisiana Department of Natural Resources
(DNR) in the form of signs about the local ecosystem, but no one had signed an
agreement to confirm that DNR would provide those materials.

Furthermore, we learned that the nature trail—a major feature of the CIAP
award—would be of little or no cost, as it would likely require only one piece of
construction equipment to create a primitive trail. The discrepancies between the
grant objectives and the project engineer’s plans, in addition to the uncertainty
over the source of funding for the completion of educational signs and the nature
trail, cause us to question whether CIAP funds will be used on unapproved
objectives. FWS amended the grant to clarify the scope of work, while the grant
recipient amended its award to clarify the access components and infrastructure to
be constructed with CIAP funds.

 Recommendations

 We recommend that FWS:

    29. Ensure that grant F12AF70317 is amended to show the decrease in
        shoreline protection; and

    30. Ensure that grant objectives align with project outcomes for grant
        F12AF70136.




                                                                                  22
Conclusion and Recommendations
Conclusion
Our findings document a range of insufficient monitoring activities by FWS and
grant management deficiencies by both FWS and the grant recipients that raise
questions about the expenditure of more than $14 million on CIAP grant projects.
The problems began with BOEMRE’s poor administration and lax monitoring of
early grant projects and have persisted under FWS’ management.

FWS continues to ineffectively monitor CIAP grants and grant recipients by
conducting—and, in some cases, not conducting—inadequate risk assessments by
not visiting project sites and by relying on inaccurate or missing data. This is
particularly troublesome in an environment where CIAP grant recipients in
Louisiana struggle to properly manage their grants. As a result of weak State
procurement laws, State recipients have fallen short of ensuring transparent and
competitive procurements, and FWS should increase its oversight to protect CIAP
funds from fraud, waste, or mismanagement. In addition, State recipients have
charged unallowable, unallocable, and unreasonable expenses on certain grants;
continue to acquire and rely on improper land appraisals; improperly draw down
grant funds; and change grant scopes without FWS approval.

We believe our recommendations will assist FWS in resolving continued
deficiencies, as well as inform grant managers of new risks that could affect CIAP
management and oversight. Failure to act on these recommendations could further
undermine CIAP and provide opportunities for fraud, waste, or mismanagement
of millions of dollars in Federal funds meant to conserve, protect, and restore
American coastal areas, wildlife, and natural resources.

Recommendations Summary
We recommend that FWS:

   1. Establish a protocol to conduct and review risk assessments for all CIAP
      recipients in accordance with DIG 2011-03.

       FWS Response
       FWS concurred with this recommendation. On April 21, 2014, the Deputy
       Director signed a memorandum instructing FWS staff to begin using
       FWS’ Financial Assistance Recipient Risk Assessment Guidance and
       related form (FWS Form 3-2462) effective October 1, 2014. CIAP
       implemented the requirement as soon as the memo was released.

       OIG Analysis of FWS Response
       We consider this recommendation resolved but not implemented (see
       Appendix 7). We recommended that FWS follow DOI-wide guidance
       (DIG 2011-03). While the FWS guidance and form may be adequate to


                                                                               23
   meet the intent of DIG 2011-03, we cannot resolve this recommendation
   until FWS provides evidence that DOI has approved the guidance and
   form as an adequate replacement for DIG 2011-03. We will refer this
   recommendation to the Assistant Secretary for Policy, Management and
   Budget for tracking of its implementation.

2. Develop and implement a monitoring plan that will effectively and
   efficiently utilize the existing CIAP State liaisons.

   FWS Response
   FWS concurred with this recommendation. FWS’ monitoring processes
   have been strengthened, and CIAP’s standard operating procedures have
   been updated. State liaison roles include reviewing reports and
   deliverables, proactively conducting site visits, and adjusting monitoring
   plans based on assessed risk for each grant.

   OIG Analysis of FWS Response
   We consider this recommendation implemented and closed.

3. Provide State liaisons with the workspace necessary to promote
   independent oversight.

   FWS Response
   FWS partially concurred with this recommendation. FWS agrees that State
   liaisons must be able to conduct independent oversight of grants, but it
   does not believe that shared workspace hinders their ability to do so
   because State liaisons may telework or make calls outside the shared
   workspace if needed.

   OIG Analysis of FWS Response
   We consider this recommendation closed. While we agree that alternative
   space may not be feasible or economical in all cases, FWS should take
   steps to ensure the liaisons have reasonable accommodations to conduct
   any sensitive work in areas “outside of the shared workspace” such as
   conference rooms or empty offices.

4. Develop and implement a schedule for reviewing grant records for
   accuracy.

   FWS Response
   FWS concurred with this recommendation. FWS has revised and
   implemented new monitoring policies and procedures, and has developed
   a monthly review process that will be in place in the coming months. FWS
   also reconciles its grants to identify and correct discrepancies.




                                                                            24
   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. FWS has
   taken steps to revise and implement new monitoring policies and
   procedures; however, the monthly review process that was developed as a
   corrective action for the findings in its A-123 audit has not been
   implemented. Once the monthly reviews begin, we will consider this
   recommendation closed. We will refer this recommendation to the
   Assistant Secretary for Policy, Management and Budget for tracking of its
   implementation.

5. Develop and implement a plan to compare projected spending levels to
   actual drawdowns to ensure that budgets reasonably match actual
   expenditures.

   FWS Response
   FWS concurred with this recommendation. Financial and performance
   monitoring is in place to ensure work is reasonably commensurate with
   progress. Liaisons compare the spending rate with the progress of
   completed work to the extent possible. State liaisons now include a
   statement on the annual interim performance reports certifying that
   spending levels are in line with progress.

   OIG Analysis of FWS Response
   We consider this recommendation implemented and closed.

6. Monitor projects at risk of not completing work by the December 31, 2016
   deadline and develop a plan to address incomplete projects.

   FWS Response
   FWS concurred with this recommendation. State liaisons are in the
   process of identifying any projects that may be at risk of not completing
   work by the deadline. A plan of action for when and under what
   conditions grantees will be given an extension past December 31, 2016,
   will be developed.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

7. Resolve the $3,934,921 in unused preaward costs that we consider funds
   to be put to better use.

   FWS Response
   FWS concurred with this recommendation. CPRA has since corrected the
   error and drawn down $2,019,617 in preaward costs. Any funds not spent



                                                                               25
   on the project will be available for the State to put toward another project
   within the approved State plan.

   OIG Analysis of FWS Response
   We consider this recommendation implemented and closed. While FWS
   does not require recipients to seek approval for changes in budget line
   items, we highly encourage the unused portion of preaward costs be
   allocated to a specific budget item to ensure these funds are not, once
   again, overlooked.

8. Increase oversight of State procurements to ensure maximum
   transparency, encourage full and open competition, and detect and deter
   potential fraudulent activities.

   FWS Response
   FWS concurred with this recommendation. FWS will consider grantee
   procurement policies and procedures in assessing risk and will conduct
   postaward monitoring based on the assessed risk. FWS will also
   encourage grantees to provide for transparency and competition in
   procurement, though there is no legal requirement that they do so beyond
   what is required per 43 C.F.R. § 12.76.

   OIG Analysis of FWS Response
   We consider this recommendation implemented and closed.

9. Discuss and document estimated contract values with recipients to ensure
   accuracy and prevent substantial increases.

   FWS Response
   FWS concurred with this recommendation. FWS will develop webinar
   training to provide recipients with guidance on development of reasonable,
   cost estimates to ensure accuracy and prevent substantial increases.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

10. Resolve the $262,406 in questioned costs associated with grant
    F12AF70087.

   FWS Response
   FWS did not concur with this recommendation. FWS acknowledged that
   the engineering contractor received the highest score in the
   “Previous/Current Work for the City of Mandeville” category, then
   determined that the firm received the highest score in the



                                                                              26
   “Training/Experience Regarding this Project” category, concluding the
   procurement process as a whole to have been sufficient.

   OIG Analysis of FWS Response
   We consider this recommendation unresolved. Due to the inappropriate
   relationship between the mayor of Mandeville and the engineer at the time
   of the procurement, the mayor had a conflict of interest when he set the
   rating criteria. The mayor specified that the “Previous/Current Work for
   the City of Mandeville” be included as a criterion, and that held as much
   weight as the “Training/Experience Regarding this Project” criterion. In
   fact, if “Previous/Current Work for the City of Mandeville” is excluded
   outright, a different firm would have ranked higher, thus proving that
   including previous work with the city as criteria led to the selection of a
   contractor with a conflict of interest. Shortly after this procurement, the
   mayor pled guilty to honest-services mail fraud for accepting numerous
   trips from the city’s engineer and a developer in Mandeville. We will refer
   this recommendation to the Assistant Secretary for Policy, Management
   and Budget for resolution.

11. Resolve the unallowable preaward costs of $5,934 charged to grant
    F12AF00217; $331,210 charged to F12AF00228; and $377 charged to
    F12AF00830.

   FWS Response
   FWS partially concurred with this recommendation. For grants
   F12AF00217 (Blind River Freshwater Diversion) and F12AF00228
   (Mississippi Long Distance Sediment Pipeline), the differences in
   preaward costs were due to a time gap between the application preparation
   and the grant award. FWS will review supporting documentation to
   determine whether the additional preaward costs reimbursed were
   necessary, reasonable, and allowable; it will then either work to recover
   the funds or amend the grants to allow recovery of the costs. For
   F12AF00830 (Living Shoreline Protection Demonstration Project), CPRA
   concurred with the finding and moved the expenditure to the
   Administration grant since it is an eligible administrative activity. FWS
   considers the latter portion of the recommendation closed.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We
   request that FWS provide documentation showing the resolution of the
   costs associated with F12AF00217 and F12AF00228 once available. We
   will refer this recommendation to the Assistant Secretary for Policy,
   Management and Budget for tracking of its implementation.

12. Recover the $51,041 in unsupported administrative expenses charged to
    grant F12AF70030; the $9,651 in unsupported payroll expenses charged to



                                                                           27
   M07AF12798; and the $4,290 unsupported payroll expenses charged to
   M10AF20124.

   FWS Response
   FWS concurred with this recommendation and will work with the grantees
   to recover the funds.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

13. Ensure that grant recipients follow Federal regulations requiring
    employees to adequately document after-the-fact hours and include
    descriptions on their timesheets for all CIAP-related activities.

   FWS Response
   FWS concurred with this recommendation. FWS has taken several steps to
   ensure compliance with reporting of time and has contacted the three
   grantees regarding their payroll costs. FWS is currently working with
   grantees to implement procedures to ensure that payroll charges reflect
   actual hours and is developing webinars to further educate grantees on
   these regulations.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

14. Recover the $18,554 in unsupported other direct charges to grant
    F12AF70070.

   FWS Response
   FWS concurred with this recommendation. CPRA processed an
   adjustment removing the expense prior to closing the award, and FWS has
   recovered the funds.

   OIG Analysis of FWS Response
   We consider this recommendation implemented and closed.

15. Recover the $3,641 in unsupported indirect costs for grants F12AF00597,
    F12AF70083, and F12AF70170.

   FWS Response
   FWS concurred with this recommendation. Upon notification of the
   calculation errors, DNR, which provides accounting services for CPRA,



                                                                           28
   made the necessary adjustments to correct the overcharged amounts. FWS
   has recovered the funds.

   OIG Analysis of FWS Response
   We consider this recommendation implemented and closed.

16. Resolve the $2,625,888 in ineligible costs and the $408,844 in funds to be
    put to better use in Livingston Parish.

   FWS Response
   FWS did not concur with this recommendation. FWS stated that the
   appraisal was conducted by a licensed appraiser, while the OIG analysis
   was conducted by non-appraisers. FWS also disagrees with OIG’s
   assessment that comparing the price of $200 per acre on an adjacent sale
   to the price of $1,000 an acre on the subject property is evidence of an
   inaccurate appraisal. FWS concludes that the appraiser followed the
   relevant standards and met the minimum requirements for Federal land
   acquisitions.

   OIG Analysis of FWS Response
   We consider this recommendation unresolved pending the outcome of a
   review by our Office of Investigations. Upon completion of the
   investigation, we will refer this recommendation to the Assistant Secretary
   for Policy, Management and Budget for tracking of its implementation.

17. Resolve the $1,893,600 in unreasonable costs in Livingston Parish.

   FWS Response
   FWS did not concur with this recommendation, as it does not consider the
   appraisal noncompliant for the reasons stated in response to
   Recommendation 16.

   OIG Analysis of FWS Response
   We consider this recommendation unresolved pending the outcome of a
   review by our Office of Investigations. Upon completion of the
   investigation, we will refer this recommendation to the Assistant Secretary
   for Policy, Management and Budget for tracking of its implementation.

18. Submit a report to the Appraisal Institute identifying the potential ethics
    violations the appraiser committed by misrepresenting the appraisal to the
    parish and the Federal Government.

   FWS Response
   FWS did not concur with this recommendation, as the original and review
   appraisers produced reports that FWS believed were compliant with the
   relevant standards.



                                                                             29
   OIG Analysis of FWS Response
   We consider this recommendation unresolved pending the outcome of a
   review by our Office of Investigations. Upon completion of the
   investigation, we will refer this recommendation to the Assistant Secretary
   for Policy, Management and Budget for tracking of its implementation.

19. Recover the $6,500,000 in ineligible costs associated with appraisals that
    did not use an allowable HBU.

   FWS Response
   FWS concurred with this recommendation and is working with the grantee
   to resolve the issue. FWS is conducting a supplemental review and taking
   other necessary actions, such as contracting for specialized certified
   review appraiser expertise.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

20. Recover the $7,486 in unreasonable costs from St. Tammany Parish.

   FWS Response
   FWS concurred with this recommendation and is working with the grantee
   to resolve the issue. FWS is conducting a supplemental review and taking
   other necessary actions, such as contracting for specialized certified
   review appraiser expertise.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

21. Maintain a record of all land and easements purchased with CIAP funds,
    as well as develop an automated easement and acquisition inspection
    process to record the easement monitoring history and document all
    monitoring activities.

   FWS Response
   FWS concurred with this recommendation. Once FWS’ Tracking and
   Reporting Actions for the Conservation of Species system is fully
   operational, it will be able to maintain detailed information on land and
   easements purchased with CIAP funds. FWS has also been developing a
   spreadsheet for recording acquisitions.




                                                                               30
   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

22. Review any easements in Plaquemines Parish to ensure the rights of usage
    are protected.

   FWS Response
   FWS did not concur with this recommendation, stating it does not have the
   authority to require the parish to obtain conservation easements on the
   private marshland upon which the dredge material is placed. Furthermore,
   FWS believes that the processes and requirements for obtaining permits in
   the Coastal Zone of the parish adequately protects the Government’s
   interest in the restored marshlands.

   OIG Analysis of FWS Response
   We consider this recommendation closed. We agree with the analysis
   contained in FWS’ response; however, when appropriate, parishes should
   be encouraged to obtain these easements to protect the Federal
   Government’s interests over the life of the project.

23. Recover $650 in program income from leases on CIAP lands.

   FWS Response
   FWS concurred with this recommendation. The parish has recovered the
   funds and will use the deductive method for any additional program
   income earned while the grant is open.

   OIG Analysis of FWS Response
   We consider this recommendation implemented and closed.

24. Require CPRA to develop a monitoring plan to ensure program income is
    captured when earned and then reported to FWS.

   FWS Response
   FWS concurred with this recommendation and will require that CPRA
   develop a monitoring plan for program income. CPRA updated its desk
   procedure to ensure proper handling of program income.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.




                                                                          31
25. Develop and implement a process to review drawdown records to ensure
    their accuracy.

   FWS Response
   FWS concurred with this recommendation. Financial and performance
   monitoring is in place to ensure that work is reasonably commensurate
   with progress. Liaisons compare spending rates with the progress of
   completed work to the extent possible, and FWS has revised CIAP
   standard operating procedures to include a monitoring plan and will be
   using it in Louisiana. In addition, FWS has fiscal specialists, who review
   all transactions on a weekly basis, perform a biweekly self-audit, and
   conduct a monthly review of all CIAP funds. FWS is developing a process
   for fiscal specialists to review all grants to establish current baseline
   conditions and then monitor drawdowns quarterly.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

26. Provide training to grantees to ensure the grantees understand Federal
    grant fund regulations.

   FWS Response
   FWS concurred with this recommendation. FWS is working with grantees
   to implement procedures to ensure that grantees understand grant
   regulations. It is also working with the National Conservation Training
   Center to develop and conduct webinars on a variety of topics, including
   monitoring subgrantees, time and effort reporting, and procurement.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.

27. Resolve the $21,191 in ineligible costs associated with the Clear Marais
    Bank Protection grant (F12AF00426).

   FWS Response
   FWS concurred with this recommendation and is actively working with
   the grantee to resolve the issue.

   OIG Analysis of FWS Response
   We consider this recommendation resolved but not implemented. We will
   refer it to the Assistant Secretary for Policy, Management and Budget for
   tracking of its implementation.



                                                                               32
28. Resolve the $37,295 in unsupported costs associated with the West Lac
    Des Allemands Shoreline Protection grant (F12AF70317).

   FWS Response
   FWS concurred with this recommendation and has since resolved the
   issue. Once notified, St. John the Baptist Parish moved the funding from
   the interest-bearing account to avoid exceeding the interest threshold. The
   parish has agreed to only draw down funds totaling the amount of invoices
   received and has developed a spreadsheet to review invoices and
   drawdowns.

   OIG Analysis of FWS Response
   We consider this recommendation implemented and closed.

29. Ensure that grant F12AF70317 is amended to show the decrease in
    shoreline protection.

   FWS Response
   FWS did not concur with this recommendation. The grant stated that the
   project planned for 11,000 linear feet of shoreline protection if funding
   allowed. In an annual interim performance report dated January 20, 2014,
   the parish reports that the amount was decreased to 6,000 linear feet. The
   deviation has therefore been addressed in the report, and a formal
   amendment is not required; however, the parish did send a letter, dated
   July 9, 2013, regarding the change in scope.

   OIG Analysis of FWS Response
   We consider this recommendation closed. Documentation provided in the
   response is sufficient to address the intent of the recommendation.

30. Ensure that grant objectives align with project outcomes for grant
    F12AF70136.

   FWS Response
   FWS did not concur with this recommendation. FWS amended the grant to
   clarify the scope of work, and the grant recipient amended its award on
   July 19, 2013, to clarify the access components and infrastructure to be
   constructed with CIAP funds. The project is currently on track.

   OIG Analysis of FWS Response
   We consider this recommendation closed. The actions taken and
   documentation provided by FWS sufficiently demonstrate that the project
   objectives are aligned with project outcomes, and thus meet the intent of
   the recommendation.




                                                                            33
Appendix 1: Prior Audit Coverage
We audited Coastal Impact Assistance Program (CIAP) grants awarded to the
State of Mississippi to determine whether grant recipients complied with Federal
regulations and U.S. Department of the Interior policies and to identify grant
management challenges that the U.S. Fish and Wildlife Service (FWS) should
address as it assumed responsibility for the program from the Bureau of Ocean
Energy Management, Regulation and Enforcement (“Management of the Coastal
Impact Assistance Program, State of Mississippi,” Report No. ER-IN-MOA-
0013-2011). In our June 2013 report, we identified multiple deficiencies that led
us to question almost $30 million in expenditures of CIAP funds.

The State of Mississippi had four eligible recipients: the Department of Marine
Resources (DMR), and Hancock, Harrison, and Jackson Counties. DMR managed
the State government’s portion of CIAP funds, while the county boards of
supervisors managed the funds allotted to each county. Together, the four
recipients were awarded 100 CIAP grants totaling $99.8 million from fiscal years
2009 through 2012.

Of the almost $39 million in our sample from 57 grants, OIG identified
approximately $30 million in CIAP-ineligible or unsupported costs, as well as
funds that could be put to better use. We identified seven major deficiencies in
CIAP management. We found grants were approved that did not meet criteria in
CIAP legislation; widespread conflicts of interest at DMR in the administration of
CIAP and land purchases; improper land appraisals that diminished CIAP’s
impact; circumvention of sole-source procurement regulations; improper charges
to CIAP grants; improper use of equipment; and various accounting, payroll, and
financial issues.

We provided 37 recommendations to help FWS resolve systemic deficiencies and
personnel issues that have affected the policies, implementation, administration,
management, and oversight of CIAP. Failure to act on these recommendations
could further undermine CIAP and leave the Federal Government at risk from
fraud, waste, or mismanagement of millions of dollars meant to conserve, protect,
and restore American coastal areas, wildlife, and natural resources.




                                                                               34
Appendix 2: Scope and Methodology
Scope
We focused our audit on grant recipients’ compliance with the Coastal Impact
Assistance Program (CIAP) authorizing legislation, Federal regulations,
U.S. Department of the Interior policies, and grant terms and conditions. We also
focused on grant management challenges that the U.S. Fish and Wildlife Service
(FWS) still needs to address after taking the responsibility of managing CIAP
from the Bureau of Ocean Energy Management, Regulation and Enforcement
(BOEMRE). We conducted our audit fieldwork from June 2013 through January
2014 and reviewed costs claimed by grantees under CIAP grants from October 1,
2007, through March 5, 2013.

We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Methodology
To accomplish our objectives, we reviewed BOEMRE and FWS CIAP guidance,
including standard operating procedures, prior reports issued by our office, and
grant files and data provided by FWS.

We interviewed FWS officials responsible for managing CIAP grants, including
FWS officials in Arlington, VA, and Baton Rouge, LA. We also interviewed grant
recipients and conducted site visits in Louisiana. Using grants in our sample, we
interviewed and visited grant recipients and subrecipients in Cameron, Jefferson,
Livingston, St. Bernard, St. James, St. John the Baptist, St. Martin, St. Tammany,
and Tangipahoa parishes, as well as the Coastal Protection and Restoration
Authority and the Louisiana Department of Natural Resources.

We relied on computer-generated data for other direct costs and payroll costs to
the extent that we used these data to select CIAP costs for testing. Based on our
test results, we either accepted the data or performed additional testing. For other
direct costs, we took samples of costs and verified them against source documents
such as purchase orders, invoices, receiving reports, and payment documentation.
For these payroll costs, we reviewed hours and rates against timesheets and other
supporting data.

Furthermore, we sampled and reviewed individual grants at the State and parish
level for compliance with grant regulations. We selected our sample using auditor
judgment, taking into consideration the size of the grant award, the grant



                                                                                 35
objective, and location. We cannot project the results of our review across the
Program as a whole.




                                                                                  36
Appendix 3: Grants Reviewed
               Grant                                          Grant
Grant Number                   Grant Title
               Recipient                                     Amount
               Assumption      Lake Verret Swamp and
F12AF70091                                                    $4,749,146
               Parish          Lake Rim Restoration
               Calcasieu       Horseshoe Lake Marsh
F12AF70132                                                     2,000,000
               Parish          Restoration
               Calcasieu       Clear Marais Bank
F12AF00426                                                     1,825,000
               Parish          Protection
               Cameron
F12AF70009                     Trosclair Road                  1,639,592
               Parish
               Cameron         West Big Burn Bridge
F12AF70035                                                     1,022,710
               Parish          Restoration
               Cameron         North Mermentau
F12AF70247                                                     3,217,774
               Parish          Restoration
                               Vermillion Bay Shoreline
F12AF70044     Iberia Parish                                   4,992,196
                               Restoration Project
                               Lower Lafitte Stabilization
               Jefferson
F12AF70080                     at Bayou Rigolettes             6,787,016
               Parish
                               (AU1)
                               Lower Lafitte Stabilization
               Jefferson
F12AF70081                     at Bayou Rigolettes             1,243,354
               Parish
                               (AU5)
               Jefferson       Mississippi River Long
F12AF01254                                                      904,164
               Parish          Sediment
               Lafourche       NW Little Lake Marsh
F12AF70073                                                     2,432,340
               Parish          Creation
                               Acquisition of
               Livingston      Baldcypress-Tupelo
F12AF70047                                                     3,034,732
               Parish          Coastal Forest in the
                               Pontchartrain Basin
                               Hydrologic Restoration in
               Livingston
F12AF70245                     Swamps West of Lake             3,457,865
               Parish
                               Maurepas
                               Tidewater Road Flood
               Plaquemines
M10AF20124                     Protection Planning and         3,364,310
               Parish
                               Construction
               Plaquemines
F12AF70019                     Fringe Marsh Repair             6,456,606
               Parish
                               Orleans Land Bridge
               Orleans
F12AF70056                     Shoreline Protection and       14,610,942
               Parish
                               Marsh Creation



                                                                      37
               Grant                                         Grant
Grant Number                    Grant Title
               Recipient                                    Amount
                                Update of the St. Bernard
               St. Bernard
F12AF70041                      Parish Coastal                $200,000
               Parish
                                Management Plan
               St. Bernard
F12AF01463                      Lake Lery Dredging            8,685,710
               Parish
               St. Charles      West LaBranche
F12AF00968                                                    3,600,000
               Parish           Shoreline Protection
                                West Bank Wetland
               St. James
M07AF15410                      Conservation and               718,620
               Parish
                                Protection
               St. James        Wetland Wastewater
M07AF12798                                                      49,994
               Parish           Assimilation Process
                                Blind River Freshwater
                                Diversion Feasibility
               St. James        Report, Preliminary
F12AF00390                                                     682,476
               Parish           Engineering, and
                                Environmental
                                Assessment
                                East Bank Wastewater
               St. James        Assimilation System and
F12AF00848                                                    1,600,000
               Parish           Sewage Collection
                                System
               St. James        West Bank Wetlands
F12AF01228                                                    1,757,027
               Parish           Assimilation Plant
               St. John the     West Lac Des Allemands
F12AF70317                                                    3,820,552
               Baptist Parish   Shoreline Protection
               St. Martin       Bayou Amy Trail and
F12AF70136                                                     390,000
               Parish           Education Pavilion
               St. Mary         Deer Island Pass
F12AF70075                                                    2,753,765
               Parish           Realignment
               St. Tammany      French Property
M08AF15129                                                    1,718,150
               Parish           Preservation
               St. Tammany      Mandeville Aquatic
F12AF70087                                                    3,723,735
               Parish           Ecosystem Restoration
               St. Tammany      Green Property
F12AF70182                                                    1,345,000
               Parish           Preservation
               State of         Orleans Land Bridge
M07AF12596                                                   33,000,000
               Louisiana        Shoreline Protection
               State of
F12AF70069                      Barataria Land Bridge        17,925,996
               Louisiana
               State of         Orleans Land Bridge
F12AF70070                                                   20,000,000
               Louisiana        Shoreline Protection



                                                                     38
               Grant                                    Grant
Grant Number                Grant Title
               Recipient                               Amount
               State of
F12AF01389                  East Grande Terre           $21,443,366
               Louisiana
               State of     Coastal Forest
F12AF70284                                               20,166,136
               Louisiana    Conservation Initiative
                            West Caminada Headland
               State of
F12AF70152                  Beach/Dune Restoration       33,000,000
               Louisiana
                            and Marsh Creation
                            Mississippi River Long
               State of
F12AF00228                  Distance Sediment            31,000,000
               Louisiana
                            Pipeline
                            Mississippi River
               State of
F12AF00439                  Reintroduction into          20,000,000
               Louisiana
                            Bayou Lafourche
                            Mississippi River Delta
               State of
F12AF00597                  Management Strategic         17,618,595
               Louisiana
                            Planning
                            Living Shoreline
               State of
F12AF00830                  Protection and               26,500,000
               Louisiana
                            Demonstration Project
               State of     Grand Lake Shoreline
F12AF70083                                                9,913,345
               Louisiana    Protection
               State of     State of Louisiana-
F12AF70170                                                6,000,000
               Louisiana    Administration of CIAP
               State of     Blind River Freshwater
F12AF00217                                                5,229,441
               Louisiana    Diversion
               State of     Morgan City Industrial
F12AF70008                                                 335,000
               Louisiana    Road
               Tangipahoa   Lake Pontchartrain
F12AF70030                                                6,582,116
               Parish       Shoreline Protection
               Terrebonne   Falgout Canal
F12AF70072                                                6,051,074
               Parish       Management
               Vermillion
F12AF70077                  North Prong Schooner          1,650,000
               Parish
Total                                                 $369,197,845




                                                                39
Appendix 4: Summary of Questioned
Costs
                                                                      Questioned Costs                Funds To
      Grant             Grant            Costs          Rec                                           Be Put to
     Number            Amount           Claimed          #        Ineligible or          Un-           Better
                                                                 Unreasonable         supported         Use
M07AF12798                $49,994           $49,994      12                                $9,651
M08AF15129              1,718,150         1,718,150      21                $7,486
M10AF20124              3,364,310         3,364,310      12                                 4,290
F12AF00217              5,229,441         4,365,131      11                 5,934
F12AF00228            31,000,000          5,883,864      11               331,210
F12AF00426              1,825,000           175,000      28                21,191
F12AF00597            17,618,595          1,786,678      15                                 1,630
F12AF00830            26,500,000               9,704     11                   377
F12AF70030              6,582,116         2,613,658      12                                51,041
                                                         17             2,625,888                        408,844
F12AF70047              3,034,732         2,625,888      18            1,893,600*
                                                         24                                                  650+
F12AF70070            20,000,000          9,206,178      14                                18,554
F12AF70083              9,913,345         9,913,345      15                                   765
F12AF70087              3,723,735         3,723,735      10               262,406
                                                          7                                            3,934,921
F12AF70170              6,000,000           904,932
                                                         15                                 1,246
F12AF70284            20,166,136          8,094,261      20             6,500,000
F12AF70317              3,820,552           507,369      29                                37,295
    Total                                                            $9,754,492        $124,472 $4,343,765

                                                                Total Questioned Costs: $14,222,729

∗
  Costs claimed have been questioned for multiple reasons. We did not include these in the totals to avoid
overstating questioned costs.
+
  Program income increases funds to be put to better use. This income, however, is not included in the
total because funds to be put to better use would have to also have to be reduced by the same amount.




                                                                                                        40
Appendix 5: Undercharged Indirect
Costs by the Coastal Protection and
Restoration Authority
  Grant                                    Grant          Amount
                   Grant Title
 Number                                   Amount        Undercharged
             Mississippi River Long
F12AF00288                                $31,000,000         $42,389
             Distance Sediment Pipeline
F12AF00458   Violet Diversion               1,390,298          27,914
             Performance Evaluation and
             Scientific Monitoring-
F12AF00858                                   432,793            1,166
             Caminada Moreau
             Subsidence Study
             Performance Evaluation and
F12AF00949   Scientific Monitoring –         561,046            1,909
             Barrier Island Studies
F12AF01389   East Grande Terre             21,443,366           3,691
F12AF01469 Gulf Intracoastal Waterway       7,230,258           3,459
           Central Wetlands
F12AF70058 Assimilation                     3,500,000            236
           Demonstration Project
           Lake Salvador Shoreline
F12AF70068                                  1,774,322             64
           Protection
F12AF70069 Barataria Land Bridge           17,925,996           1,266
           Orleans Land Bridge
F12AF70070                                 20,000,000          22,266
           Shoreline Protection
           Bayou Lamoque Floodgate
F12AF70071                                  2,070,559           4,001
           Removal
F12AF70082 Rockefeller Refuge               6,054,083            338
           West Caminada Headland
F12AF70152 Beach/Dune Restoration          33,000,000          23,165
           and Marsh Creation
           Performance Evaluation and
           Scientific Monitoring –
F12AF70188                                   404,915            2,204
           Rockefeller Refuge
           Performance Monitoring
           Marsh Creation Via
F12AF70226                                  3,681,305            427
           Beneficial Use




                                                                  41
  Grant                               Grant          Amount
                    Grant Title
 Number                              Amount        Undercharged
           Freshwater Bayou Bank
F12AF70250                           $12,000,000          $2,171
           Stabilization
           Coastal Forest
F12AF70284                            20,166,136           5,350
           Conservation Initiative
Total                                                  $142,016




                                                             42
Appendix 6: U.S. Fish and Wildlife
Service Response to Draft Report
The U.S. Fish and Wildlife Service’s (FWS) response to our draft report follows
on page 44. FWS provided several attachments with its response, but we did not
include them here.




                                                                              43
                   United States Departrnent of the Interior
                                   FISH AND WILDLIFE SERVICE
                                           Washington, D.C. 20240


                                            SEP 0 5 2014
In Reply Refer To:
FWS/ ABHC/058 11 9

Ms . Kimberly Elmore
Assistant Inspector General for Audits, Inspections, and Evaluations
U.S. Department of the Interior
Office of the Inspector General
1849 C Street, NW, MS 442 8
Washington, DC 20240




Dear Ms. Elmore:

Thank you for providing the U.S. Fish and Wi ldlife Service the opportunity to respond and comment on
the draft audi t report: Management oft he Coasta l Impact Assistance Program in the State o.f Louisiana
(Report Number ER-/N-FWS-001 0-201 3).

You wi ll find our response to the find ings and our plan to address those findings attached to this
document.




                                              ::;eputy
                                                          ~~w~
                                                          ~r#~TOR


Enclosures




                                                                                                       44
                             U.S. Fish and Wildlife Service Responses
                     To the Office of Inspector General Draft Audit Report
            Management of the Coastal Impact Assistance Program in the State of Louisiana
                                Report No. ER-IN-FWS-0010-2013


This audit focused on financial assistance transactions that occurred between October 1, 2007
and March 5, 2013. During much of that time, the Bureau of Ocean Energy Management,
Regulation, and Enforcement (BOEMRE) administered the Coastal Impact Assistance Program
(CIAP). Since that timeframe, and in response to the Department of the Interior (DOI) Financial
Assistance Management Review (FAMR) of August 2009, the U.S. Fish and Wildlife Service
(FWS) has made significant progress in enhancing its internal controls over financial assistance
(see Attachment 1, “Corrective Action Plan (CAP) U.S. Fish and Wildlife Service August 2009
FAMR,” and Attachment 2, “U.S. Fish and Wildlife Service, Financial Assistance Business
Process, Issuing a New Financial Assistance Award Guidance”). Many of the findings and
recommendations, therefore, pertain to this earlier timeframe and are not reflective of current,
more rigorous practices in place


Recommendation 1: Establish a protocol to conduct and review risk assessments for all CIAP
recipients in accordance with DIG 2011-03.

   FWS Response: We concur. On April 21, 2014, the Deputy Director signed a memo
   instructing FWS staff to begin using the Financial Assistance Recipient Risk Assessment
   Guidance and related form, FWS Form 3-2462, effective October 1, 2014. FWS informed
   DOI of the guidance and deadline. DOI supports the guidance developed. Due to an
   outstanding OIG audit finding, CIAP implemented the requirement as soon as the memo was
   released. (See Attachment 3.)

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 2: Develop and implement a monitoring plan that will effectively and
efficiently utilize the existing CIAP State Liaisons.

   FWS Response: We concur with the recommendation. FWS monitoring processes have been
   strengthened and improved, as documented in the revised CIAP Standard Operating
   Procedures (SOP) (Attachment 4). Responsibilities of the FWS State Liaison within each
   CIAP-eligible state include reviewing grantee reports and associated deliverables, and pro-
   actively conducting post-award site visits. The Liaison’s monitoring schedule will
   incorporate site visits based on assessed risk for each grant.

   FWS has further expanded upon the existing monitoring plan to better communicate the
   existing processes for gathering, storing, and tracking performance and fiscal status reports,

                                                      1

                                                                                                    45
   and will be more diligent about documenting all communication with recipients. The plan also
   includes monthly status check phone calls with recipients.

   FWS will continue to work with liaisons to ensure that they are following the SOPs.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 3: Provide State Liaisons with the workspace necessary to promote
independent oversight.

   FWS Response: We partially concur with the finding and the recommendation. State liaisons
   must have the ability to conduct independent oversight of grants. The Service will not move
   FWS liaisons to office space physically separate from, and not provided by, CIAP grant
   recipients. Sharing workspace has several benefits including the ability to monitor grantees
   onsite, ease of communication between liaisons and grantees, and cost-saving considerations.
   We believe that it would not be practical or beneficial to physically separate the federal
   employees from the CIAP recipients and see no evidence of a conflict of interest due to the
   office location. Options for FWS liaisons include the ability to telework or make calls outside
   of the shared workspace.

   We believe that this is no different than DOI's practice of providing offices to the KPMG
   auditors. Our Human Resources Officer has reviewed this recommendation and has found no
   reason to change the physical location of the federal employees.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 4: Develop and implement a schedule for reviewing grant records for
accuracy.

   FWS Response: We concur with the recommendation. While we have taken measures to
   improve monitoring and oversight, there is still more that can be done. Our progress to date
   has included revising and implementing new monitoring policies and procedures, and
   developing a monthly review process as a corrective action for the findings in our A-123 audit
   that will be in place in the coming months. We also conduct reconciliations on our grants to
   identify and correct discrepancies.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

                                                     2

                                                                                               46
Recommendation 5: Develop and implement a plan to compare projected spending levels to
actual drawdowns to ensure that budgets reasonably match actual expenditures.

   FWS Response: We concur with the recommendation. Financial/performance monitoring is
   in place to ensure that work is reasonably commensurate with progress. As part of their
   regular reviews, liaisons compare the spending rate with the progress of completed work to
   the extent possible. In cases of construction projects, this comparison is more difficult since
   drawdowns vary based on contractor costs and billing cycles.

   We will work to better communicate the monitoring activities taking place. State Liaisons
   now include a certification statement on the annual interim performance report certifying that
   spending levels are in line with progress. In the event that discrepancies are encountered, the
   State Liaison will contact the recipient for further information. The report will not be
   approved until all questions have been resolved.

   Our Standard Operating Procedures manual has been updated to reflect the processes in place.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 6: Monitor projects at risk for not completing work by the December 31, 2016
deadline.

   FWS Response: We concur with the recommendation. State Liaisons and Fiscal Specialists
   are currently monitoring that drawdowns are reasonably commensurate with progress. State
   Liaisons are in the process of identifying any projects that may be at risk of not completing
   work by the December 31, 2016 deadline. A plan of action for when/under what conditions
   grantees will be given an extension to complete work after December 31, 2016 will be
   developed.

   Target Date: May 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 7: Resolve the $3,934,921 in unused pre-award costs that we consider funds
to be put to a better use.

   FWS Response: We concur with the recommendation. Regarding F12AF00170 (State of
   Louisiana Administration of CIAP), the full amount of the $4 million pre-award budget had
   not been drawn down at the time of the audit. The Louisiana Coastal Protection and
   Restoration Authority (CPRA) has since corrected the error and drew down an additional
   $2,019,616.59 in pre-award costs. Attachment 5 includes the documentation for the

                                                      3

                                                                                                 47
   correction. Any funds not spent on the project will be available for the State to put toward
   another project within the approved State plan.


   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 8: Increase oversight of State procurements to ensure maximum transparency,
encourage full and open competition, and detect and deter potential fraudulent activities.

   FWS Response: We concur with the finding and recommendation. CPRA is subject to 43
   C.F.R. 12 subparts C, D, and E. According to 43 C.F.R. § 12.76, “When procuring property
   and services under a grant, a state will follow the same policies and procedures it uses for
   procurements from its non-federal funds.” Parishes are required to use their own procurement
   procedures which reflect applicable state and local laws and regulations, provided that the
   procurements conform to applicable federal laws and standards identified in 43 C.F.R. §
   12.76(b). FWS will consider grantee procurement policies and procedures in assessing risk
   and will conduct post-award monitoring based on the assessed risk. FWS will encourage
   grantees to provide for transparency and competition in procurement, though there is no legal
   requirement that they do so beyond what is required in state and parish procurement
   procedures.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 9: Discuss and document estimated contract values with recipients to ensure
accuracy and prevent substantial increases.

   FWS Response: We concur with this recommendation. While CPRA does have a process for
   reviewing and evaluating proposals and monitoring progress, we will continue to address this
   issue. We will develop webinar training to provide recipients with guidance on development
   of reasonable accurate costs estimates to ensure accuracy and prevent substantial increases.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 10: Resolve the $262,406 in questioned costs associated with grant
F12AF70087.




                                                      4

                                                                                                  48
   FWS Response: We do not concur with this recommendation. The OIG report notes that in
   the City of Mandeville in St. Tammany Parish, the Parish steered a contract to a particular
   firm that had a relationship with the mayor. The City of Mandeville provided proof of
   procurement within the guidelines of the funding requirement (Attachment 6). The City of
   Mandeville issued a public notice in the St. Tammany news soliciting responses from bidders
   in early April 2009. The City received Requests for Qualifications on April 21, 2009 and
   reviewed them on April 27, 2009. The evaluation committee consisted of the Director of
   Public Works, City Attorney, DPW Engineering Assistant and Project Manager, and the
   City’s Purchasing Agent. The committee evaluated firms on seven criteria. The criteria
   “Training/Experience Regarding this Project” and “Previous/Current Work for the City of
   Mandeville” were each worth 25 points. While Meyer Engineers did indeed receive the
   highest possible score in the previous experience category, the firm also received the highest
   relative score for the training/experience factor by four reviewers.

   Target Date: We consider this issue closed

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service


Recommendation 11: Resolve the unallowable pre-award costs of $5,934 charged to
F12AF00217, the $331,210 charged to F12AF00228, and $377 charged to F12AF00830.

   FWS Response: We partially concur with this recommendation.

   For grants F12AF00228 (Mississippi Long Distance Sediment Pipeline) and F12AF00217
   (Blind River Freshwater Diversion), the differences in pre-award costs were due to a time gap
   between the application preparation and grant award effective date. We will review the
   grantee’s supporting documentation to determine whether the additional pre-award costs
   reimbursed were necessary, reasonable and allowable for completion of the task. Once we
   have made that determination, we will either work with the grantee to recover the funds or
   amend the grants to allow recovery of the costs.

   For grant F12AF00830 (Living Shoreline Protection Demonstration Project), CPRA concurs
   with the finding and moved the expenditure to the administration grant (F12AF00170) since it
   is an eligible administrative activity (Attachment 7). We consider this portion of the
   recommendation closed.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 12: Recover the $51,041 in unsupported administrative expenses charged to
grant F12AF70030, the $9,651 in unsupported payroll expenses charged to M07AF12798, and
the $4,290 unsupported payroll expenses charged to M10AF20124.

                                                     5

                                                                                               49
   FWS Response: We concur with this recommendation and will work with the grantees to
   recover the funds.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 13: Ensure that grant recipients follow Federal regulations requiring
employees to adequately document after-the-fact hours and include descriptions on their
timesheets for all CIAP-related activities.

   FWS Response: We concur with the recommendation. We have taken several steps to ensure
   compliance with reporting of time for CIAP-related activities and have contacted the three
   grantees listed in the OIG report regarding their payroll errors.

   We are currently working with grantees to implement procedures to ensure that payroll
   charges reflect the actual hours worked on those grants and are developing webinars to further
   educate grantees on regulations related to charging salaries and wages to federal grants.

   We will continue to proactively address this issue in the future.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 14: Recover the $18,554 in unsupported other direct charges to grant
F12AF70070

   FWS Response: We concur with the finding and associated recommendation. The IG noted
   that CPRA incorrectly included $18,554 in contract costs from a company that was not a
   contractor for the Orleans Land Bridge Grant (F12AF0070). A prior audit by the Louisiana
   Legislative Auditor in June 2013 identified the error and CPRA processed an adjustment
   removing that expense prior to closing the award. Attachment 8 includes the approved
   journal entry and a copy of the State of Louisiana Integrated Statewide Information System
   (ISIS) Financial System Federal Aid and Expenditure Summary report form showing the
   adjustment. FWS has recovered the funds.

   Target Date: We consider this issue is closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service




                                                      6

                                                                                              50
Recommendation 15: Recover the $3,641 in unsupported indirect costs for grants F12AF00597,
F12AF70083, and F12AF70170.

   FWS Response: We concur with this recommendation. Upon notification of the indirect cost
   (IDC) calculation errors, accountants for the Louisiana Department of Natural Resources
   (DNR) which provides accounting services to CPRA, made the necessary adjustments to
   correct the overcharged amounts on open grants. At this time, all three errors have been
   corrected as follows:

          Regarding F12AF00597, CPRA processed an ISIS document to reduce the IDC by the
          overdrawn amount of $1,630.40. The Automated Standard Application for Payments
          (ASAP) draw, dated 12/06/2013, in the amount of $1,440,243.42 includes
          $1,195,680.61 for grant F12AF00597 (expenditures to be drawn were reduced by
          $1,630.40); therefore, the overdrawn funds have been recovered by FWS
          (Attachment 9).

          Regarding F12AF70083, FWS requested that the State remit a check to the
          government for $765.32. FWS has received the check. Attachment 9 shows the
          revised IDC and the recovery from the State.

          Regarding F12AF70170, the overdrawn amount of $1,246.06 is correct, but the grant
          number should be F12AF00217 (Small Division of Convent/Blind River). CPRA
          processed an ISIS document to reduce the IDC by the overdrawn amount; however,
          there are currently no recently incurred expenditures on this project. Therefore, the
          State submitted a check for the overdrawn amount to FWS (Attachment 9).

          FWS has recovered the funds.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 16: Recover the $3,059,176 in ineligible costs associated with appraisals that
did not have review appraisals conducted and classify $3,974 as funds to be put to better use.

   FWS Response: We do not concur with this recommendation. Regarding review appraisals
   for the French Property and Green Property, the OIG noted that it did not receive a response
   to its request from St. Tammany Parish prior to issuing its draft report. Both properties did
   have the required review appraisals. (Attachment 10).


   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

                                                     7

                                                                                               51
Recommendation 17: Resolve the $2,625,888 in ineligible costs, and the $408,844 in funds to be
put to better use in Livingston Parish.

   FWS Response:

   Ineligible costs. We do not concur with this recommendation. The Parish and BOEMRE
   relied on professionally licensed appraisers/review appraisers to provide an opinion of the
   subject’s market value and a review of that professional opinion of market value. This is an
   area of professional expertise. The findings in the audit report, which are critical of this work,
   are not those of an appraiser. Therefore, the assertion that $1,000 was not the market value of
   the subject property is unproven. The date of the report’s valuation is December 1, 2010; the
   date of the report is March 4, 2011, in response to review comments made January 10, 2011.
   There is only one report. The audit appears to intermingle an appraisal report’s effective date
   of valuation with the date of the report being signed. The timeline is as follows:
       1. Spring/Summer 2010 - The Parish entered into a contract with Barber & Mann, an
           appraiser that specializes in complex appraisal assignments including government and
           wetlands land acquisitions. The contract with the appraiser (Attachment 11) indicated
           that the appraiser would follow Uniform Standards of Professional Appraisal Practice
           (USPAP) standards. The Parish also signed a contract with a review appraiser (SJB
           Group). Both companies are currently listed on the System for Awards Management
           website as active in status.
       2. August 2010 - Barber & Mann met with representatives of the Parish, Davies
           Engineering, McLin & Associates, and Pittman Law Firm. The appraisers also
           conducted a site visit and photographed the subject property.
       3. December 1, 2010 - Barber & Mann appraisal effective date for the 2,367.822 acres of
           land.
       4. December 10, 2010 - Barber & Mann sent Livingston Parish an e-mail (with a PDF of
           an unsigned appraisal report and stated that the report was incomplete without
           signatures and appendices) for preview and coordination of other documents such as
           title, survey, Phase I ESA, etc. That same day, they mailed a complete package with a
           signed copy of the appraisal report and an invoice to Livingston Parish.

   The audit mentions a $200 per-acre sale for 32,500 acres which contained occasional river
   frontage acreage. It was recorded and of public record. The 2,368-acre subject contains
   extensive Lake Maurepas lake frontage. Occasional and extensive are hardly similar, and
   one sale does not make a market. The fact that the land was sold at a lower price does not
   mean that the original appraisal is not accurate. The review appraisal states the appraisal
   contained eleven sales with mean prices of $1,124 per acre. Seven of the eleven comparable
   sales were at or greater than $1,000 per acre. We do not believe the Parish misled the
   government officials. We believe the Parish was working with information it had available at
   the time.

   In summary, the appraiser followed Uniform Standards of Professional Appraisal Practice
   (USPAP) standards. In addition, the review appraisal states that the appraisal report “is in an



                                                       8

                                                                                                  52
   acceptable format and meets the minimum documentation requirements for federal land
   acquisitions under Uniform Appraisal Standards (Yellow Book).”


   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 18: Resolve the $1,893,600 in unreasonable costs in Livingston Parish.

   FWS Response: We do not concur with this recommendation. The IG recommended that
   FWS resolve the $1,893,600 in unreasonable costs due to a noncompliant appraisal. See
   response to Recommendation 17 above.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 19: Submit a report to the Appraisal Institute identifying the potential ethics
violations the appraiser committed by misrepresenting the appraisal to the Parish and the
Federal Government.

   FWS Response: We do not concur. Both the original and the review appraisers produced
   reports in compliance with the reporting requirements set forth under the Standards Rule 2-
   2(b) of the Uniform Standards of Professional Appraisal Practice, with Standards of
   Professional Appraisal Practice of the Appraisal Institute and with Uniform Appraisal
   Standards for Federal Land Acquisitions.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 20: Recover the $6,500,000 in ineligible costs associated with appraisals that
did not use an allowable HBU.

   FWS Response: We concur with this recommendation. We are working with the grantee to
   resolve the issue. We are conducting a supplemental review and taking other necessary
   actions, such as contracting for specialized certified review appraiser expertise.

   Target Date: April 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

                                                     9

                                                                                                 53
Recommendation 21: Recover the $7,486 in unreasonable costs from St. Tammany Parish.

   FWS Response: We concur with the recommendation and will work with the grantee to
   recover the funds.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 22: Maintain a record of all land and easements purchased with CIAP funds,
as well as develop an automated easement and acquisition inspection process to record the
easement monitoring history and document all monitoring activities.

   FWS Response: We concur with this recommendation. Once our Tracking and Reporting
   Actions for the Conservation of Species (TRACS) system is fully operational, it will enable us
   to maintain detailed information on land and easements purchased with CIAP funds, as well
   as the status of monitoring and oversight activities. We have also been developing a
   spreadsheet for recording acquisitions. Effective management of CIAP lands is needed in
   order to ensure that conservation acquisitions result in the intended benefits.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 23: Review any easements in Plaquemines Parish to ensure the rights of usage
are protected.

   FWS Response: We do not concur with this recommendation. The draft OIG report indicated
   that since Plaquemines Parish did not obtain executed easements protecting projects from
   third-party interests, FWS may not have verified that the government’s interest in the project
   is adequately protected.

   43 C.F.R. 12 subpart C does not require states and local governments to have a property trust
   relationship for land improved with federal grant funds as it does in subpart F for institutions
   of higher learning, hospitals, and non-profit organizations. Consequently, we do not have
   regulatory authority to require the Parish to obtain conservation easements on the private
   marsh land upon which the dredge material is placed.

   Evans-Graves was the Prime Consultant to Plaquemines Parish Government for the update to
   the Plaquemines Parish Coastal Zone Management Program; the firm authored the attached
   document (Attachment 12), which was approved by the Parish, Coastal Zone Management
   (CZM), and the Department of Natural Resources (DNR). Attachment 12 contains the
   processes and requirements for obtaining permits in the Coastal Zone of the Parish. As shown

                                                      10

                                                                                                 54
   in Fig. 7.1 on Page 7-8 of the document, reviews and approvals by CZM and Louisiana
   Department of Natural Resources – Coastal Management Division (LDNR-CMD) are
   addressed for permit applications in the Coastal Zone. This process provides adequate
   protection to protect the government’s interest in the restored marsh lands.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 24: Recover $650 in program income from leases on CIAP lands.

   FWS Response: We concur with this response. The Parish has recovered the funds and
   reported the income on a revised SF-425 report (Attachment 13). The grant is still open and
   FWS is anticipating a request for a no cost extension. There will be additional program
   income and the grantee will use the deductive method on the final report or when those funds
   have been expended. Future program income will also be properly reported and returned to
   the government.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 25: Require CPRA to develop a monitoring plan to ensure program income is
captured when earned and then reported to FWS.

   FWS Response: We concur with this recommendation. We will require that the CPRA
   develop a monitoring plan to ensure program income is captured when earned and then
   reported to FWS. CPRA updated its desk procedure to ensure proper handling of program
   income.

   Target Date: May 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 26: Develop and implement a process to review drawdown records to ensure
their accuracy.

   FWS Response: We concur with the recommendation. Financial/performance monitoring is
   in place to ensure that work is reasonably commensurate with progress. As part of their
   regular reviews, liaisons compare the spending rate with the progress of completed work to
   the extent possible. FWS revised CIAP Standard Operating Procedures (SOP) including a
   monitoring plan (Attachment 4) and will be using it in Louisiana.



                                                    11

                                                                                             55
   As part of the routine financial review, a Fiscal Specialist reviews all grant transactions on a
   weekly basis, performs a bi-weekly transaction self-audit, and a monthly review of the status
   of all CIAP funds, obligated and unobligated. This process has been ongoing since August
   2012. The SOP has been revised to better communicate the processes. Additionally, he/she
   will conduct an audit of the recipients’ funding draws each month by taking a random sample
   from the draws processed by each grantee during that period. We contact the grantee and
   request documentation to support the amount drawn. If upon our review the documentation
   submitted does not support the amount drawn, we will take further action to resolve the issue
   or recover the questioned costs.

   We are also developing a process for the Fiscal Specialists that will require them to review all
   grants to establish current baseline conditions and then monitor draw downs on a quarterly
   basis. We will continue to identify ways to monitor expenditures and project progress.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 27: Provide training to grantees to ensure the grantees understand federal
grant fund regulations.

   FWS Response: We concur with this recommendation. We are currently working with
   grantees to implement procedures to ensure that grantees understand federal grant fund
   regulations. We are working with the National Conservation Training Center to develop and
   conduct webinars which cover a variety of topics including monitoring sub-grantees, time and
   effort reporting, and procurement.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 28: Resolve the $21,191 in ineligible costs associated with the Clear Marais
Bank Protection grant (F12AF00426).

   FWS Response: We concur with the finding. The Calcasieu Parish improperly used $21,191
   in funds to pay invoices from the Horseshoe Lake March Restoration grant. We are actively
   working with grantee to resolve this issue.

   Target Date: February 1, 2015

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service




                                                      12

                                                                                                 56
Recommendation 29: Resolve the $37,295 in unsupported costs associated with the West Lac
Des Allemands Shoreline Protection grant (F12AF70317).

   FWS Response: We concur with this recommendation and have since resolved the issue
   associated with the West Lac Des Allemands Shoreline Protection grant. Once notified of the
   $37,295 in unsupported costs, the St. John the Baptist Parish moved the funding from the
   interest-bearing account to avoid exceeding the interest threshold. The Parish has agreed to
   only draw down funds totaling the amount of invoices received and has since developed a
   spreadsheet to review invoices and drawdowns.

   Target Date: We consider this issue closed

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

Recommendation 30: Ensure that grant F12AF70317 is amended to show the decrease in
shoreline protection.

   FWS Response: We do not concur with this recommendation. The report found differences
   in the stated objectives and outcomes for the West Lac Des Allemands Shoreline Protection
   grant (F12AF70317). The amended project planned for 11,000 linear feet of shoreline
   projection if funding allowed. The grantee communicated available funding and estimated
   completion in an annual interim performance report.

   In the project narrative for grant F12AF70317, amendment 1 effective May 18, 2012, item 5.
   “Project Description” states the following, “The objective of the project is to construct
   approximately 11,000 linear feet of shoreline protection from “Pleasure Bend” westward to
   Pointe aux Herbes using the most economical and efficient method of shoreline protection for
   West Lac des Allemands. The shoreline protection will be constructed during Phase II of
   the project to the extent the available funding allows.”

   In an Annual Interim Performance report dated January 20, 2014, St. John the Baptist Parish
   reports that the original project was for 11,000 linear feet; however the amount was decreased
   due to budget concerns and transportation costs. The project description within the
   performance report notes a distance of approximately 6,000 linear feet. The deviation has
   therefore been addressed in the Annual Interim Performance report.

   Following WSFR procedures, we received a pre-approval request from the grantee dated July
   9, 2013. We responded with a letter of approval dated July 31, 2013 (Attachment 14). A
   formal amendment to the grant would only be required for a change in budget or period of
   performance, neither of which applies in this case.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service

                                                    13

                                                                                               57
Recommendation 31: Ensure that grant objectives align with project outcomes for grant
F12AF70136.

   FWS Response: We do not concur with this recommendation. Assessments of project
   outcomes are currently a part of the closeout monitoring effort on all Louisiana projects. An
   amendment to the cooperative agreement between the Louisiana Department of Natural
   Resources and St. Martin Parish was signed on June 5, 2013.

   The original objectives of the Bayou Amy Trail and Educational Pavilion grant
   (F12AF70136) were to create a conservation outreach and educational center to facilitate
   canoe and other public boating access into a unique bottomland hardwood/cypress tupelo
   swamp in which a canoe trail had already been established. The CIAP project would fulfill an
   identified public need by creating public access with a minimal environmental foot print and
   will provide a defined access to a natural environmental resource that is currently inaccessible
   to the public.

   The project includes the following:

   Pavilion and Restroom. A small pavilion with a restroom facility will be constructed for use
   as an environmental education center to visitors about the conservation of the ecology of the
   area.

   Nature Trail. A nature trail will allow interpretive programs about conservation and
   protection of natural resources. The floating dock and gangway at the edge of the bayou are
   considered components of the nature trail and were present on design plans for the project
   dated June 2012.

   The grant recipient amended their award on to July 19, 2013 to clarify the access components
   and infrastructure to be constructed with CIAP funds. See Attachment 15 for the cover letter,
   award Amendment, and supporting memo. CIAP funds will support construction of a
   pavilion, freestanding restroom facility, ADA compliant parking for the pavilion and
   restroom, an aggregate parking area for the site, and a nature trail component to allow access
   and viewing of Bayou Amy (floating dock and gangway).

   The project is currently on track.

   Target Date: We consider this issue closed.

   Responsible Official: Hannibal Bolton, Assistant Director – Wildlife and Sport Fish
   Restoration Programs, U.S. Fish & Wildlife Service




                                                     14

                                                                                                 58
Appendix 7: Status of
Recommendations
In response to our draft report, the U.S. Fish and Wildlife Service concurred or
partially concurred with 23 of our 30 recommendations and was working to
implement or close them. The response included target dates and an action official
for each recommendation (see Appendix 6). We consider 4 recommendations
unresolved, 14 resolved but not implemented, and 12 closed.

 Recommendations                    Status                 Action Required
                                                            We will refer this
                                                        recommendation to the
            10                    Unresolved             Assistant Secretary for
                                                        Policy, Management and
                                                         Budget for resolution.
                                                        Upon completion of our
                                                          investigation, we will
                                                                refer this
                                                        recommendation to the
        16, 17, 18                Unresolved
                                                         Assistant Secretary for
                                                        Policy, Management and
                                                         Budget for tracking of
                                                            implementation.
                                                           We will refer these
                                                        recommendations to the
1, 4, 6, 9, 11, 12, 13, 19,    Resolved but not          Assistant Secretary for
  20, 21, 24, 25, 26, 27        implemented             Policy, Management and
                                                         Budget for tracking of
                                                            implementation.

 2, 3, 5, 7, 8, 14, 15, 22,                               No further action is
                                    Closed
       23, 28, 29, 30                                          required.




                                                                                 59
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
